<html>
<title> - AL QAEDA, THE TALIBAN, AND OTHER EXTREMISTS GROUPS IN AFGHANISTAN AND PAKISTAN</title>
<body><pre>[Senate Hearing 112-70]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 112-70
 
 AL QAEDA, THE TALIBAN, AND OTHER EXTREMISTS GROUPS IN AFGHANISTAN AND 
                                PAKISTAN 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


         Available via the World Wide Web: http://www.fdsys.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-892 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  















                            C O N T E N T S

                              ----------                              
                                                                   Page

Bergen, Peter, director, National Security Studies Program, New 
  America Foundation, Washington, DC.............................     5
    Prepared statement...........................................     7
Fair, C. Christine, Ph.D., assistant professor, Center for Peace 
  and Security Studies, Georgetown University, Washington, DC....    22
    Prepared statement...........................................    24
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Pillar, Paul, Ph.D., director of graduate studies and faculty 
  member, Center for Peace and Security Studies, Georgetown 
  University, Washington, DC.....................................    17
    Prepared statement...........................................    19

                                 (iii)

  


 AL QAEDA, THE TALIBAN, AND OTHER EXTREMISTS GROUPS IN AFGHANISTAN AND 
                                PAKISTAN

                              ----------                              


                         TUESDAY, MAY 24, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:06 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Shaheen, Udall, 
and Lugar.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order. Good 
morning. I appreciate everybody being here. This is the fifth 
in a series of hearings on Afghanistan and Pakistan, and today 
we will examine perhaps one of the most important aspects of 
the war, which is the enemy: Who are they? What do they think? 
What are the possibilities of either dividing them or working 
with some components of them? Many, many questions surrounding 
the various forces that are at large in the western part of 
Pakistan and in Afghanistan itself.
    We're a little bit under the gun today because we have the 
joint session with Prime Minister Netanyahu of Israel. We will 
have to end this hearing punctually in order to get over to the 
Senate and begin that session. So I ask each of the witnesses 
if you would summarize your testimony. Your complete statements 
will be placed in the record as if read in full, and that'll 
give us more time to ask questions.
    In order to disrupt, dismantle, and defeat al-Qaeda and 
prevent Afghanistan from becoming a terrorist sanctuary, we 
clearly need to understand exactly who we're fighting, what 
motivates them, what binds them together, and, most 
importantly, what could drive them apart. Today we'll attempt 
to gain a deeper understanding of insurgent and extremists 
groups that inhabit the region and better understand the nature 
of this conflict.
    Osama bin Laden may have been at the center of it all, but
his death does not signal the end of terrorism. Al-Qaeda still 
exists, motivated by the same vitriol and warped ideology that 
has always been the organization's trademark. The Abbottabad 
raid, how-
ever, did send an unmistakable message: The United States is 
committed, capable, and unrelenting in its pursuit of those who 
seek to do us harm.
    The extent of bin Laden's operational significance will 
become clear when we finish analyzing the material that was 
removed from his compound. But one aspect of his legacy is 
already apparent. Even after 9/11, he played a central role in 
motivating disparate groups to unite against the United States 
and other western nations.
    Nowhere is this phenomenon more apparent than in 
Afghanistan and Pakistan, where strong connections among 
extremists groups exist at both the organizational and 
individual levels. Terrorists and insurgents work together 
against coalition forces and to indiscriminately murder 
innocent civilians, aid workers, civil servants, and children. 
Their motivation, which should offend all faiths, is to 
destabilize the region and to establish a safe haven where they 
can, and plot attacks against the United States and our allies. 
People ask why we are still in Afghanistan. This is the reason.
    Al-Qaeda and the Taliban are names well known to Americans. 
But other groups are actively plotting, actively killing, every 
day. The Haqqani network has expanded its reach beyond North 
Waziristan in Pakistan and provides sanctuary to al-Qaeda and 
the Afghan Taliban. The Tehrik-i-Taliban, otherwise known as 
the Pakistani Taliban, and Lashkar-e-Jhangvi systematically 
work to undermine the Government of Pakistan. Lashkar-e-Taiba 
and Jaish-e-Mohammed continue to launch attacks that risk 
sparking war between nuclear-armed India and Pakistan.
    So I'd like to take 1 minute, if I can, to highlight the 
threat posed by Lashkar-e-Taiba. This group, responsible for 
the vicious Mumbai attacks of 2008, is capable of not only 
destabilizing the region with another attack against India, but 
through its extensive alumni organization and network of 
training camps throughout Pakistan it could threaten the United 
States homeland.
    We also face threats from individuals seeking to fulfill 
their own personal objectives. Najibullah Zazi, a legal United 
States resident born in Afghanistan, conspired to bomb New York 
City's subway system in 2009 after he received training in 
Pakistan. Faisal Shahzad, who attempted to detonate a car bomb 
last year in Time Square, was linked to the Pakistan Taliban.
    Unfortunately, these are just two examples of a new 
generation of would-be terrorists who have grown up in the 
shadow of extremist militancy. These lone wolves are as 
potentially dangerous as any one organization.
    Even though these groups and individuals have overlapping 
interests, fissures do exist among them. They're separated by 
ideologies, nationalities, and tribal or sectarian backgrounds. 
Our focus now ought to be less on who will succeed bin Laden 
and more on how to exploit those fissures and dismantle the 
networks that he spawned.
    So this is a critical moment in the war in Afghanistan. Our 
security gains in the south--and they are real--coupled with 
bin Laden's death, have, at least in my judgment and certainly 
in the judgment of the people I talked with in Afghanistan last 
weekend, have created some political space. So it's important 
that we seize that opportunity.
    Middle- and low-level Taliban fighters, many of them want 
to come in from the battlefield. We need to work with the 
Afghan Government in order to make sure that those who wish to 
lay down their arms can in fact do so, and as reconcilable 
elements of the insurgency enter into the peace process--and I 
think it's possible for some of them to do that--we need to 
ensure that Afghans are able to avert both Taliban rule and a 
return to civil war. That is a delicate balancing act.
    Of course, we can't forget the impact that Pakistan has on 
the future of Afghanistan. I've many times said that Pakistan 
is the key to diminishing the insurgency in Afghanistan itself. 
What happens in Pakistan may do more to determine the rate at 
which American troops can withdraw, the rate at which the 
Afghan troops can stand up, and the degree to which governance 
can be improved in Afghanistan.
    We also need to remember that terrorists and insurgents are 
continuing to exploit the 1,200-mile porous border that 
separates the two countries. And we will have to work very 
closely with Pakistan in order to deal with the problem of the 
sanctuaries as purveyors of violence in both nations.
    The good news here is that there is common ground between 
the vital national interests of Pakistan and the United States, 
even at the same time as there are some divergent interests. It 
will take adroit and persistent diplomacy to convince the 
Pakistani military leaders that the real threat to their 
sovereignty comes not from its eastern border and not from 
across the Atlantic, but from violent extremists in their own 
country.
    We obviously have a lot to discuss here today, and to help 
us do this we have Peter Bergen, currently the director of the 
National Security Studies Program at the New America Foundation 
and an expert on al-Qaeda and bin Laden; Dr. Paul Pillar, a 28-
year veteran of the CIA and director of graduate studies and 
faculty member at Georgetown University; and Dr. Christine 
Fair, also a professor at Georgetown University's Center for 
Peace and Security Studies and an expert on extremist groups in 
South Asia. I thank each of you for coming in this morning.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, for 
calling this hearing. I note that it is the fifth in a series 
of hearings that we have had on Afghanistan and Pakistan. I 
join you in welcoming our distinguished witnesses.
    Like the chairman, I remain hopeful that we will soon hear 
from the Defense Department and the State Department in public 
session about their plans in the region going forward. At this 
hearing we are attempting to define the nature of the terrorist 
threats that confront us in Afghanistan and Pakistan. This is 
important because we are devoting enormous resources to these 
two countries, with the primary goal of fighting terrorism.
    Both Afghanistan and Pakistan affect clear United States 
national security interests. In previous hearings, however, I 
have contended that the resources being spent in Afghanistan 
are far greater than the current threat warrants. The United 
States has almost 100,000 troops in Afghanistan, with another 
32,000 deployed in the region to support the mission. According 
to the Congressional Research Service, there were an estimated 
87,000 military contract personnel in Afghanistan at the 
beginning of this year. More than 1,000 civilian personnel are 
assigned to the United States Embassy.
    The United States effort in Afghanistan is costing 
approximately $120 billion a year. The question before us is 
whether Afghanistan is strategically important enough to 
justify the lives and massive resources that we are spending 
there, especially given that few terrorists in Afghanistan have 
global designs or reach. To the extent that our purpose is to 
confront the global terrorist threat, we should be refocusing 
resources on Pakistan, Yemen, Somalia, parts of North Africa, 
and other locations.
    Our government should be working on an approach that allows 
us to achieve the most important national security goals in 
Afghanistan--especially preventing the Taliban from taking over 
the government and preventing Afghan territory from being used 
as a terrorist safe haven--at far less expense.
    The Pakistan side of the border has a fundamentally 
different dynamic. Despite the death of Osama bin Laden, al-
Qaeda and other terrorist groups maintain a strong presence. 
There is no question that the threat of these groups, combined 
with worries about state collapse, a Pakistani war with India, 
the safety of the Pakistani nuclear arsenal, and Pakistan's 
intersection with other states in the region make it a 
strategically vital country worth the cost of engagement. The 
question is how the United States navigates the contradictions 
inherent in dealing with the Pakistani Government and Pakistani 
society to ensure that our resources and diplomacy advance our 
objectives efficiently.
    The importance of getting this right is reinforced by the 
utterances of Osama bin Laden, who called the terrorist 
acquisition of nuclear and chemical weapons ``a religious 
duty.'' This effort has not died with bin Laden. Al-Qaeda and 
its affiliates have so far been unsuccessful in obtaining 
nuclear material or a nuclear device, experts believe. But many 
of our top military and intelligence officials continue to 
regard the terrorist acquisition of a nuclear weapon as the 
biggest threat to the United States national security.
    Pakistan's military leaders have given repeated assurances 
that the country's rapidly expanding nuclear arsenal is well-
secured. But we also know that the A.Q. Khan network was 
enabled by members of Pakistan's nuclear establishment. 
Further, if Pakistan succumbs to violent extremism or economic 
collapse, confidence in the security of Pakistan's nuclear 
arsenal and technology could erode rapidly.
    This underscores the importance to United States national 
security of a stable Pakistan and of continued engagement on 
terrorism and nuclear security issues.
    I look forward with you, Mr. Chairman, to the 
recommendations of our expert witnesses today. Thank you.
    The Chairman. Thanks, Senator Lugar. I appreciate it very 
much.
    We will start with Mr. Bergen, then Mr. Pillar, and Ms. 
Fair. Thank you.
    Mr. Bergen.

STATEMENT OF PETER BERGEN, DIRECTOR, NATIONAL SECURITY STUDIES 
        PROGRAM, NEW AMERICA FOUNDATION, WASHINGTON, DC

    Mr. Bergen. Thank you, Senator Kerry. Thank you, Senator 
Lugar.
    In my 5 minutes I wanted to focus on the issue of Taliban 
reconciliation. Senator Kerry talked about the political space 
that has opened up for the possibility of reconciliation. 
Obviously, the death of Osama bin Laden provides an enormous 
opportunity for the Taliban, one which I think if they don't 
take suggests that they are unlikely to take such an 
opportunity again.
    As you know, Osama bin Laden swore an oath of allegiance to 
Mullah Omar, a religious oath, calling him ``the commander of 
the faithful.'' Now, Mullah Omar is now in the position to say: 
That was a personal arrangement; I don't really need an oath of 
allegiance from al-Qaeda any more. And let's see if he takes 
this opportunity, because I see several problems with the idea 
of reconciliation and some opportunities.
    The problems, briefly, are: The moderate Taliban has 
already reconciled. You know their names: Mullah Zaeef, Mullah 
Muttawakil, the Foreign Minister. They've had 10 years to 
reconcile. The people who aren't reconciled are pretty hard 
core.
    Second, they've had 10 years to reject----
    The Chairman. How many hard core do you think there are?
    Mr. Bergen. How many hard-core Taliban?
    The Chairman. When you say ``hard-core,'' what are you 
talking about?
    Mr. Bergen. Well, I mean people who generally believe in 
the idea that Mullah Omar is the leader of all Muslims, that 
al-Qaeda is a good thing. I mean, they've had 10 years to 
reject al-Qaeda. As you know, al-Qaeda's embedded with the 
Haqqani Network right now.
    We've also the problem the Taliban is not the Taliban; it's 
the Talibans. So any negotiation will be several groups. We've 
seen that peace deals with the Taliban on the other side of the 
border in Pakistan--a border, by the way, that they don't 
recognize--they've reneged on every peace agreement they've 
been involved in. They had a peace agreement in Waziristan in 
2005 and in 2006 and in Swat in 2009. They took those peace 
agreements as opportunities to essentially regroup and take 
over more territory.
    We've run a controlled experiment on what life under the 
Taliban looks like very recently in Pakistan. In Swat they 
beheaded policemen, they burned down the girls' schools, and 
they imposed a reign of terror, and that's the Taliban that I 
think is the hard core, that hasn't really changed their spots.
    We also saw, with the arrest of Mullah Baradar last year in 
Pakistan, effectively arguably the No. 2 of the Taliban, that 
the Pakistanis have a veto over these negotiations. So any 
negotiation involves them. And that's not the end of the world, 
but it is a factor that we need to consider going forward.
    The Northern Alliance also has an effective veto. I mean, 
Dr. Abdullah, who is well known to both the chairman and the 
ranking member, isn't going to give up everything he's fought 
for if there are significant territorial concessions or 
concessions of principle to the Taliban. And of course, he is 
likely to be the next President of Afghanistan in 2014. So the 
Northern Alliance have a veto as well as the Pakistanis over 
these negotiations.
    Hitherto the negotiations that have gone on in Mecca and 
the Maldives have amounted to nothing. I mean, one Afghan 
official joked to me that the reason that people went to the 
Maldives for the negotiations was simply they wanted a 
vacation. But there was nothing really serious coming out of 
this.
    In the case of Mullah Mansour, the supposed No. 2 in the 
Taliban who turned out to be a Quetta shopkeeper posing as a 
leader of the Taliban, indicates that we know really very 
little of what's going on inside this movement. So lack of 
knowledge is not helpful when you're negotiating.
    Finally and most importantly in terms of the problems with 
negotiating with the Taliban, what do the Taliban really want? 
Have they described what the future of Afghanistan they want, a 
future that involves democracy, that involves elections, that 
involves women going to work, that involves girls being 
educated, that involves rights for ethnic minorities? I don't 
think so.
    These are all very, very big problems. Then let me now turn 
to opportunities, now that I've described the problems. The 
opportunities, of course, are any kinds of negotiations help 
gather information about the opposition. We can create splits 
in the movement. Hezb-e-Islami, Gulbuddin Hekmatyar's group, 
may do a deal. They're the sort of lowest hanging fruit. And 
once you do a deal with one aspect of the insurgency, you 
create the possibility of further splits.
    Americans are tired of the war. As the chairman alluded to 
and as Senator Lugar alluded to, the Taliban have taken a lot 
of hits in southern Afghanistan. In any negotiation, the 
recognition of a mutually hurting stalemate is sort of a sine 
qua non.
    The founding of the High Peace Council, yes, it has 
problems, but it's brought into the tent a number of spoilers 
from the Northern Alliance so that they're involved in a 
potential deal is a good thing. Recent reports in the 
Washington Post and Der Spiegel that negotiations are 
proceeding in Germany, third party sponsors of negotiations 
might include Turkey and Qatar, these are good things.
    Finally, most importantly on the opportunities, three-
quarters of Afghans favor a political solution, and this is 
very important. So the political context is there. That number 
goes up to 94 percent in Kandahar, so an overwhelming number of 
Afghans want negotiations.
    Finally on a personal note, I've been visiting Afghanistan 
since the civil war in 1993 and I spent a fair amount of time 
under the Taliban and have a pretty good sense of what life was 
actually like there. I think it's going to be quite hard for 
this group. I think there's a classic problem in intelligence 
circles called mirror imaging, which you're both familiar with, 
which is the idea that other people will behave like us. In 
fact, the hard core of the Taliban are religious fanatics. When 
Mullah Omar awarded himself the title of ``commander of the 
faithful,'' he's not just the commander of the Taliban; he's 
the commander of all Muslims. And the history of negotiations 
with religious fanatics, particularly ones with delusions of 
grandeur, is not encouraging.
    [The prepared statement of Mr. Bergen follows:]

                   Prepared Statement of Peter Bergen

    Senator Kerry, Senator Lugar, and other members of the committee, 
thank you for the opportunity to testify today.
    My testimony will attempt to answer nine questions:
    1. Why should the United States continue to fight against the 
Taliban in Afghanistan almost a decade after 9/11 and now that Osama 
bin Laden is dead?
    2. Is progress being made in Afghanistan, both generally and 
against the Taliban?
    3. What effect might the killing of bin Laden have on near- and 
long-term U.S. global security interests, and on core al-Qaeda's goals 
and capabilities?
    4. What is the relationship between the Taliban and al-Qaeda?
    5. How might that relationship be changed by the death of bin 
Laden?
    6. What are the impediments to ``reconciliation'' with the Taliban 
leadership?
    7. Given those impediments, why try and negotiate with the Taliban 
and are there reasons to think those negotiations might eventually 
work?
    8. Might the Haqqani or Hezb-e-Islami (Gulbuddin Hekmatyar) 
factions of the Taliban be willing to consider a settlement?
    9. There is an agglomeration of extremist groups operating in the 
lawless region near the Afghanistan-Pakistan border, including the 
Pakistani Taliban, al-Qaeda, and other affiliated and sectarian groups. 
How should policymakers prioritize which of these to work against?
          * * * * * * *

    1. Why should the United States continue to fight against the 
Taliban in Afghanistan almost a decade after 9/11 and now that Osama 
bin Laden is dead?
    President Obama has publicly defined the task in Afghanistan rather 
narrowly, as preventing the return of al-Qaeda to the country; in 
short, a countersanctuary strategy.\1\ Part of the reason for this 
relatively narrow public description of the Afghan strategy is, of 
course, political: there aren't many Americans who would countenance 
the return of al-Qaeda in Afghanistan.
    But there are other reasons the United States remains in 
Afghanistan even if they don't have the political heft that invoking 
the threat from al-Qaeda does. First, conceding the return of the 
Taliban to power in part or the whole of Afghanistan would be a foreign 
policy reversal for the United States. Second, when the United States 
overthrows a government it has a moral obligation not to exit without 
setting the conditions for a slightly more stable and prosperous 
country. Third, when the Taliban were in power in Afghanistan they 
played host not just to al-Qaeda, but also to many other Islamist 
terrorist and insurgent groups from around the globe. Fourth, some kind 
of regional settlement in South Asia that encompasses Afghanistan will 
likely lower the risks of war between the nuclear-armed states of 
Pakistan and India. Fifth, and this is hard for many foreign policy 
``realists'' to grasp: the Taliban are the Taliban. When they were in 
power in Afghanistan, their regime was characterized by its large-scale 
massacres of the Shia,\2\ its incarceration of half the population in 
their homes, and a country that became the world capital of jihadist 
terrorism.
    Evidence for what the Taliban are likely to do should they return 
to power in Afghanistan in some shape or form is provided by a 
controlled experiment on this question that has gone on over the past 
several years in Pakistan. In the onetime Pakistani tourist destination 
of Swat between 2008 and 2009 the Taliban imposed a reign of terror, 
beheading policemen whose bodies were left to rot in public, burning 
down girls' schools, and administering public lashings to women for 
supposed infractions such as adultery.\3\ It was a formula that they 
had already followed for several years in the tribal areas of Pakistan, 
the home base of the Pakistani branch of the Taliban.
    And the Taliban haven't changed their spots in Afghanistan either. 
According to a United Nation report released in March, of the some 
2,800 civilian casualties of the war in 2010, three-quarters were 
caused by the Taliban.\4\ The massacre at the Kabul Bank branch in the 
eastern city of Jalalabad earlier this year was emblematic of this 
trend. Footage of the February 19 attack was captured by the bank's 
security cameras and shows a Taliban fighter ordering Afghan civilians 
to enter a room and then firing on them. At least 40 people, mostly 
civilians, were killed in the assault.\5\ And for those who think that 
the Taliban have lightened up on one of their signature policies--
preventing girls from being educated--consider that a concerted 
campaign of chemical weapon attacks has taken place against around a 
dozen girls schools across Afghanistan since the spring of 2009. Afghan 
girls have been poisoned with organophosphates, a nerve agent used in 
insecticides, in schools in Balkh and Kunduz in the north, and in 
Kabul, Ghazni, Kapisa, and Parwan in central Afghanistan. Those attacks 
have sickened and hospitalized hundreds.\6\
    The recent evidence from Pakistan and Afghanistan shows that the 
notion that should the Taliban come back to power in parts of 
Afghanistan that they will suddenly morph into some kind of Pashtun 
version of the Rotary Club is a delusion. Despite this, earlier this 
year, George W. Bush's Ambassador to India, Robert Blackwill, writing 
in Foreign Affairs, made the argument that a modus vivendi could and 
should be reached with the Taliban: ``Washington should accept that the 
Taliban will inevitably control most of the Pashtun south and east'' 
and therefore the United States should accept that the de facto 
partition of Afghanistan is ``the best alternative to strategic 
defeat.'' \7\ It's strange that a diplomat who had spent years in South 
Asia was advocating partition in a part of the world where it is well 
known that the 1947 partition of India and Pakistan caused 1 million 
civilian deaths.\8\ And not even the Taliban are calling for the 
partition of Afghanistan, which is an older nation than the United 
States. (The first Afghan state was founded in 1747).
    The Blackwill plan was the most extreme expression of a now-common 
sentiment amongst the American foreign policy establishment: Let's just 
get it over with in Afghanistan, which is predicated on the belief 
(hope, really) that the Taliban are jus' sum' plain' ol' country folks 
who may not have the best manners in Central Asia, but nonetheless are 
men we can and should do business with because they represent our best 
exit strategy from the Afghan morass.
    American liberals, who were vocal in their opposition to Taliban 
when they imposed a theocratic reign of terror on Afghanistan before 9/
11, have been strikingly silent on the issue of what a return to power 
of the Taliban in some shape or form in Afghanistan would mean for the 
rights of women and ethnic minorities.
    For those who say that Afghanistan is a conservative Islamic 
country and that therefore the Taliban's social policies just aren't 
that unusual, it's helpful to note that when the Taliban were in power 
there were 1 million kids in school and almost none of them were girls, 
while today there are 7 million kids in school and 37 percent are 
females.\9\

    2. Is progress being made in Afghanistan, both generally and 
against the Taliban?
    In addition to the sevenfold increase in the number of kids in 
school, positive developments in Afghanistan over the past several 
years have included the following: GDP growth was a robust 22 percent 
between 2009 and 2010; \10\ access to some form of basic health care 
was available to around 9 percent of the population a decade ago and is 
now accessible to 85 percent; \11\ the phone system barely existed 
before the U.S. occupation of Afghanistan, now one in three Afghans has 
a cell phone; \12\ the Taliban had banned almost all forms of media 
other than their own ``Voice of Sharia'' radio network, while there are 
now ``scores of radio stations, dozens of TV stations and some 100 
active press titles,'' according to the BBC; \13\ around 6 million 
Afghan refugees have returned home since the fall of the Taliban; and 
so crowded with cars and people has Kabul become that the city's epic 
pollution is now killing more Afghans than are dying in the war.\14\
    Because of all the tangible ways that their lives are getting 
better 59 percent of Afghans say their country is going in the right 
direction.\15\ By comparison, that metric is exactly reversed in the 
United States. In a New York Times poll released in April, 70 percent 
of Americans said their country is going in the wrong direction.\16\ 
The positive feelings a majority of Afghans have about the way things 
are going help account for the surprisingly high marks that they 
continue to give the U.S. military after nearly a decade of occupation, 
which scored a 68-percent favorable rating among Afghans in a BBC/ABC 
poll released in December.\17\ (In Iraq at the height of the war in 
2007 BBC/ABC found that only 22 percent of Iraqis voiced support for 
the U.S. military presence in their country.) \18\
    Afghans' faith in their future can be explained by the fact that 
they know that, despite all the problems that they face today--the 
corruption of the central government and the police and the resurgence 
of the Taliban--their lives are far better now than during the brutal 
Soviet occupation of the 1980s, the devastating civil war of the early 
1990s, and the theocratic rule of the Taliban that followed.
    This past fall U.S. military officials publicly asserted that many 
Taliban safe havens in Helmand and in Kandahar had been eliminated.\19\ 
This is not only the assessment of the Pentagon, but the judgment of 
the International Council on Security and Development (ICOS), a think 
tank that has done field work in southern Afghanistan for many years 
and has long been critical of Western policies there. ICOS issued a 
report in February observing, ``NATO and Afghan forces now control a 
greater number of districts in Helmand and Kandahar than before,'' 
including key Taliban strongholds such as Marjah in Helmand and 
Arghandab in Kandahar.\20\
    General David Petraeus told the Senate Armed Services Committee in 
March that in one recent 3-month period 360 insurgent leaders were 
killed or captured.\21\ According to a wide range of observers, as a 
result the average age of Taliban commanders has dropped from 35 to 25 
in the past year.\22\ Some U.S. military officials believe this is a 
good thing, as the younger commanders are ``less ideological,'' while 
Thomas Ruttig, one of the world's leading authorities on the Taliban, 
says that the reverse is the case: the younger Taliban are more rigid 
ideologically.\23\
    The sharply stepped up military campaign against the Taliban has 
caused some hand-wringing that Petraeus isn't following 
counterinsurgency precepts, which have been grossly caricatured as 
winning ``hearts and minds'' (see ``Three Cups of Tea''), as if 
counterinsurgency is some kind of advertising campaign to win 
loyalties. In reality, counterinsurgency is a set of commonsense 
precepts about how to avoid the kind of ham-handed tactics and 
repressive measures that will turn the bulk of the population against 
you, while simultaneously also applying well-calibrated doses of 
violence to defeat insurgents.
    Another common critique of the stepped-up campaign against Taliban 
commanders is that the United States should not be killing those 
commanders at the same time it is saying that we should talk with them. 
This critique bears little relation to the history of the last two 
decades of Afghan warfare, in which all sides have constantly fought 
and talked with each other simultaneously. Indeed, the Karzai 
government has had substantive contacts with elements of the Taliban 
since as early as 2003, according to a former Afghan national security 
official familiar with those discussions.
    An additional approach putting pressure on the Taliban are what the 
U.S. military terms Village Stability Operations, in which small teams 
of American Special Forces live permanently ``among the population'' in 
remote areas of provinces such as Uruzgan and Zabul where the 
insurgents once had unfettered freedom of movement. There the U.S. 
Special Forces are helping to train local community militiamen known as 
Afghan Local Police (ALP). The Government of Afghanistan has 
technically authorized 10,000 of them, but American officers believe 
that the numbers will rise to something more like 24,000.\24\ One says, 
``ALP is the development that the Taliban most fear, we see it in the 
intelligence.''
    When Petraeus first arrived as the commander in Afghanistan last 
summer setting up the ALP was his first big fight with Karzai, who was 
concerned quite reasonably that arming tribal militias might replicate 
some of the warlordism that has plagued Afghanistan since the early 
1990s. Karzai agreed to the program in July, and there are a number of 
measures in place that make it avoid some of the obvious pitfalls of 
setting up even more armed Afghan groups.\25\ The program is not 
administered by the U.S. military but the Afghan Ministry of Interior, 
which keeps tabs on it through district police chiefs who are 
responsible for issuing guns to the community policemen. Candidates for 
the local police are selected by the local village shura (council), 
while everyone admitted to the program has to submit to biometric 
scans.

    3. What effect will the killing of Osama bin Laden have on near- 
and long-term U.S. global security interests, and on core al-Qaeda's 
goals and capabilities?
    After the fall of the Taliban, bin Laden didn't, of course, 
continue to exert day-to-day control over al-Qaeda, but statements from 
him have always been the most reliable guide to the future actions of 
jihadist movements around the world, and this remained the case even 
while he was on the run. In the past decade bin Laden issued more than 
30 video- and audiotapes.\26\ Those messages reached untold millions 
worldwide via television, the Internet, and newspapers. The tapes not 
only instructed al-Qaeda's followers to continue to kill Westerners and 
Jews; some also carried specific instructions that militant cells then 
acted on. In 2003, bin Laden called for attacks against members of the 
coalition in Iraq; subsequently terrorists bombed commuters on their 
way to work in Madrid and London. Bin Laden also called for attacks on 
the Pakistani state in 2007, which is one of the reasons that Pakistan 
had more than 50 suicide attacks that year. \27\ In March 2008 bin 
Laden denounced the publication of cartoons of the Prophet Mohammed in 
a Danish newspaper, which he said would soon be avenged. Three months 
later, an al-Qaeda suicide attacker bombed the Danish Embassy in 
Islamabad, killing six.
    Materials recovered from the Abbottabad compound in northern 
Pakistan where bin Laden was killed paint a picture of a leader deeply 
involved in tactical, operational, and strategic planning for al-Qaeda, 
and in communication with other leaders of the group and even the 
organization's affiliates overseas.\28\
    Bin Laden exercised near-total control over al-Qaeda, whose members 
had to swear a religious oath personally to bin Laden, so ensuring 
blind loyalty to him. Khalid Sheikh Mohammed, the operational commander 
of the 9/11 attacks, outlined the dictatorial powers that bin Laden 
exercised over his organization: ``If the Shura council at al-Qaeda, 
the highest authority in the organization, had a majority of 98 percent 
on a resolution and it is opposed by bin Laden, he has the right to 
cancel the resolution.'' \29\ Bin Laden's son Omar recalls that the men 
who worked for
al-Qaeda had a habit of requesting permission before they spoke with 
their leader, saying, ``Dear prince: May I speak?'' \30\
    The death of bin Laden eliminates the founder of al-Qaeda, which 
has only enjoyed one leader since its founding in 1988, and it also 
eliminates the one man who provided broad, unquestioned strategic goals 
to the wider jihadist movement. Around the world, those who joined al-
Qaeda in the past two decades have sworn baya, a religious oath of 
allegiance to bin Laden, rather than to the organization itself, in the 
same way that Nazi party members swore an oath of fealty to Hitler, 
rather than to Nazism. That baya must now be transferred to whoever the 
new leader of al-Qaeda is going to be.
    Of course, even as the al-Qaeda organization withers there are 
pretenders to bin Laden's throne. The first is the dour Egyptian 
surgeon, Ayman al-Zawahiri, who is the deputy leader of al-Qaeda, and 
therefore technically bin Laden's successor. But Zawahiri is not 
regarded as a natural leader. and even among his fellow Egyptian 
militants Zawahiri is seen as a divisive force and so he is unlikely to 
be able to step into the role of the paramount leader of al-Qaeda and 
of the global jihadist movement that was occupied by bin Laden.\31\ 
There is scant evidence that Zawahiri has the charisma of bin Laden, 
nor that he commands the respect bordering on love that was accorded to 
bin Laden by members of al-Qaeda.
    Another possible leader of al-Qaeda is Saif al-Adel, also an 
Egyptian, who has played a role as a military commander of the 
terrorist group, and since 9/11 has spent many years living in Iran 
under some form of house arrest. Adel has been appointed the 
``caretaker'' leader of the terrorist organization, according to Noman 
Benotman, a former leader of the Libyan Islamic Fighting Group, a 
militant organization that was once aligned with al-Qaeda, but in 
recent years has renounced
al-Qaeda's ideology.\32\
    Benotman, who has known the leaders of al-Qaeda for more than two 
decades and has long been a reliable source of information about the 
inner workings of the terrorist group, says that based on his personal 
communications with militants and discussions on jihadist forums, Adel 
has emerged as the interim leader of al-Qaeda as it reels from the 
death of its founder and eventually transitions, presumably, to the 
uncharismatic Zawahiri.
    A wild card is that one of bin Laden's dozen or so sons--endowed 
with an iconic family name--could eventually rise to take over the 
terrorist group. Already Saad bin Laden, one of the oldest sons, has 
played a middle management role in al-Qaeda.\33\
    One of the key issues that any future leader of al-Qaeda has to 
reckon with now is dealing with the fallout from the large quantities 
of sensitive information that were recovered by U.S. forces at the 
compound in Abbottabad where bin Laden was killed. That information is 
likely to prove damaging to al-Qaeda operations.
    Jihadist terrorism will not, of course, disappear because of the 
death of bin Laden. Indeed, the Pakistan Taliban have already mounted 
attacks in Pakistan that they said were revenge for bin Laden's 
death,\34\ but it is hard to imagine two more final endings to the 
``War on Terror'' than the popular revolts against the authoritarian 
regimes in the Middle East and the death of bin Laden. No one in the 
streets of Cairo or Benghazi carried placards of bin Laden's face, and 
very few demanded the imposition of Taliban-like rule, al-Qaeda's 
preferred end state for the countries in the region.
    If the Arab Spring was a large nail in the coffin of al-Qaeda's 
ideology, the death of bin Laden was an equally large nail in the 
coffin of al-Qaeda the organization.

    4. What is the relationship between the Taliban and al-Qaeda?
    There is plenty of evidence for the continuing cozy relationship 
between al-Qaeda and important factions of the Taliban: For much of the 
past decade al-Qaeda has been harbored largely by the Haqqani network, 
the ferocious Taliban militia based in Pakistan's tribal regions. 
According to a July 2009 WikiLeaks cable from the U.S. consulate in 
Peshawar, which abuts the Pakistani tribal regions, Jalaluddin Haqqani, 
the veteran jihadi commander who has been the longtime head of the 
Haqqani network, is ``considered to have a close relationship'' with 
Mullah Omar. Haqqani's relationship with bin Laden stretches back to 
the mid-1980s, according to the Palestinian journalist Jamal Ismail who 
worked with bin Laden doing this time period. Another Palestinian 
journalist, Abdel Bari Atwan, who spent days interviewing bin Laden in 
1996, points out that bin Laden did Mullah Omar a big favor when he 
introduced the Taliban leader to his old buddy Jalaluddin Haqqani, who 
later rose to become arguably the Taliban's most feared military 
commander.\35\
    Cooperation between the Taliban and al-Qaeda can be seen in the 
suicide bombing that killed seven CIA officers and contractors in the 
American base at Khost in eastern Afghanistan on December 30, 2009. The 
suicide bomber, Humam Khalil Abu-Mulal al-Balawi, was a Jordanian 
doctor recruited by al-Qaeda.\36\ Two months after Balawi's suicide 
attack al-Qaeda's video production arm released an interview with him 
videotaped some time before he died in which he laid out how he planned 
to attack the group of Agency officials using a bomb made from C-4.\37\ 
In another prerecorded video, the chief of the Pakistani Taliban, 
Hakimullah Mehsud, appeared alongside Balawi saying the attack was 
revenge for U.S. drone strikes directed at the Taliban.\38\
    The Taliban began to reemerge as a serious threat in Afghanistan in 
2006, launching a serious campaign of suicide bombers and IED attacks. 
Sami Yousafzai, a leading reporter on the Taliban, has documented that 
they were taught these techniques by Arab jihadists. That same year 
Taliban commander Mullah Dadullah explained his links to al-Qaeda. 
``Osama bin Laden, thank God, is alive and in good health,'' he told 
CBS. ``We are in contact with his top aides and sharing plans and 
operations with each other.'' \39\ Three years later, Mustafa Abu Al-
Yazid, one of
al-Qaeda's founders, described his group's rapport with the Taliban 
during an interview, ``We are on a good and strong relationship with 
them,'' he said, ``and we frequently meet them.''
    U.S. officials such as CIA director Leon Panetta have publicly said 
that there are only a few dozen members of al-Qaeda in Afghanistan.\40\ 
In addition, U.S. officials point to other ``foreign fighters'' 
operating in Afghanistan in particular in the east and to some degree 
in the north of the county; for instance, Uzbeks affiliated with the 
Islamic Movement of Uzbekistan, which is deemed a terrorist group by 
the U.S. Government.\41\
    A briefing slide prepared by the U.S. Defense Intelligence Agency 
(DIA), which leaked out in January 2010, showed a map of insurgent 
groups operating in Afghanistan in which the Islamic Movement of 
Uzbekistan was shown to have a presence in five provinces in northern 
and southern Afghanistan. The leaked DIA briefing asserts that al-Qaeda 
``provides facilitation, training, and some funding'' to the Taliban in 
Afghanistan, while the Taliban also maintain a ``mutually supportive 
relationship'' with Chechen and Central Asian fighters.\42\
    On April 26 NATO officials announced that the Saudi al-Qaeda 
leader, Abu Hafs al-Najdi, had been killed in an airstrike in Kunar 
province in northeastern Afghanistan. The NATO announcement noted that 
Najdi was one of 25 al-Qaeda leaders and fighters who had been killed 
in the past month.\43\ This suggests that there are still a small but 
not insignificant number of al-Qaeda militants as well as other foreign 
fighters who continue to operate in Afghanistan.
    A nuanced account of the Taliban-al-Qaeda relationship is provided 
by Anne Stenersen, a research fellow at the Norwegian Defense Research 
Establishment. In a paper for the New America Foundation last year she 
pointed out that al-Qaeda functions mostly in the east of Afghanistan 
because of its longstanding ties to the Taliban Haqqani Network that is 
prevalent in this region, while al-Qaeda and the Quetta Shura in 
southern Afghanistan have diverged strategically in the past 
decade.\44\ Some of this is an accident of geography; when al-Qaeda 
leaders fled Tora Bora in eastern Afghanistan after the fall from power 
of the Taliban during the winter of 2001 they moved into the adjoining 
tribal regions of Pakistan, many hundreds of miles from the Quetta 
Shura's base in southwestern Pakistan, and into the welcoming arms of 
the Haqqani network. In short, al-Qaeda is embedded with the Haqqani 
Taliban, but not with the Mullah Omar Taliban.

    5. How might the relationship between the Taliban and al-Qaeda be 
changed by the death of bin Laden?
    Now that bin Laden is dead, there is a real opportunity for the 
Taliban to disassociate itself from al-Qaeda, as it was bin Laden who, 
sometime before the 9/11 attacks, swore an oath of allegiance to 
Taliban leader Mullah Omar as the Amir
al-Mu'minin, ``The Commander of the Faithful,'' a rarely invoked 
religious title that dates from around the time of the Prophet 
Mohammed.
    Mullah Omar could now communicate to his followers that the new 
leader of
al-Qaeda does not need to swear an oath of allegiance to him as ``The 
Commander of the Faithful.'' This would be an important step for the 
Taliban to satisfy a key condition of peace talks with the U.S. and 
Afghan Governments; that they reject
al-Qaeda, something that hitherto the Taliban has not done. If Mullah 
Omar does not take advantage of this opening in the near future, it is 
hard to imagine that he ever will.

    6. What are the impediments to ``reconciliation'' with the 
Taliban's leadership?
    There are nine significant problems.
    First, who is there exactly to negotiate with in the Taliban? It's 
been a decade since their fall from power and the ``moderate'' Taliban 
who wanted to reconcile with the Afghan Government have already done 
so. They are the same group of Taliban who are constantly trotted out 
in any discussion of a putative Taliban deal: Mullah Zaeef, their 
former Ambassador to Pakistan; Wakil Ahmed Muttawakil, their Foreign 
Minister; and Abdul Hakim Mujahid, who was the Taliban representative 
in the United States before 9/11. This group was generally opposed to 
bin Laden well before he attacked the United States. Bin Laden told 
intimates that his biggest enemies in the world were the United States 
and the Taliban Foreign Ministry, which was trying to put the kibosh on 
his anti-Western antics in Afghanistan. And today the ``moderate'' 
already-reconciled Taliban don't represent the Taliban on the 
battlefield because they haven't been part of the movement for the past 
decade.
    The key Taliban figure is still their leader, Mullah Omar, a.k.a., 
``The Commander of the Faithful.'' The title indicates that Mullah Omar 
is not just the leader of the Taliban, but also of all Muslims, 
suggesting that Mullah Omar is not only a religious fanatic, but also a 
fanatic with significant delusions of grandeur.\45\ Negotiations with 
religious fanatics who have delusions of grandeur generally do not go 
well. Almost every country in the world--including the Taliban leader's 
quasi-patron, Pakistan--pleaded with Mullah Omar in the spring of 2001 
not to blow up the giant Buddhas of Bamiyan, Afghanistan's greatest 
cultural patrimony. But he did so anyway. After 9/11, Mullah Omar was 
prepared to lose his entire regime on the point of principle that he 
would not give up bin Laden to the United States following the attacks 
on Manhattan and the Pentagon. And he did.
    Since his regime fell, Mullah Omar has also shown no appetite for 
negotiation or compromise. He is joined in this attitude by some senior 
members of his movement, such as Maulavi Abdul Kabir, a Taliban leader 
in eastern Afghanistan, who said in January, ``neither has there been 
any peace talk nor has any of the Islamic Emirate (the Taliban) shown 
any inclination toward it.'' \46\
    Second, the Taliban has had 10 years to reject bin Laden and all 
his works, and they haven't done so. For this reason, Saudi Arabia, 
which has hosted ``talks about talks'' in Mecca between Afghan 
Government officials and some Taliban representatives,\47\ has soured 
on the process. For the Saudi Government, which is squarely in al-
Qaeda's gun sights, a public repudiation of al-Qaeda by the Taliban is 
a nonnegotiable demand. And it hasn't happened.
    Third, ``the Taliban'' is really many Talibans, and so a deal with 
one insurgent group doesn't mean the end of the insurgency writ large. 
It's not clear that even Mullah Omar can deliver all of the Taliban 
that he nominally controls in southern Afghanistan, because they are 
often fissured into purely local groups, many of whom are a long way 
from Taliban headquarters across the border in Quetta, Pakistan. As 
Ambassador Richard Holbrooke commented 3 months before he died, 
``There's no Ho Chi Minh. There's no Slobodan Milosevic. There's no 
Palestinian Authority.'' \48\ Instead, there are several leaders of the 
various wings of the insurgency, from the Quetta Shura in southern 
Afghanistan, to the Haqqani Network in the east, as well as smaller 
insurgent groups, such as Gulbuddin Hekmatyar's Hezb-e-Islami in the 
northeast.
    Fourth, the history of ``peace'' deals with the Taliban in Pakistan 
shows that the groups can't be trusted. Deals between the Pakistani 
Government and the Taliban in Waziristan in 2005 and 2006 and in Swat 
in 2009 were merely preludes to the Taliban establishing their brutal 
``emirates,'' regrouping and then moving into adjoining areas to seize 
more territory.\49\
    Fifth, the arrest in Pakistan last year of Mullah Baradar, the 
Taliban No. 2 who had been negotiating directly with Karzai, shows that 
the Pakistani military and government wants to retain a veto over any 
significant negotiations going forward.\50\ That isn't necessarily a 
bad thing, as certainly Pakistan's legitimate interests in the post-
American Afghanistan must be recognized, but it also demonstrates that 
negotiations with the Taliban will not be as straightforward as just 
having the Afghan Government and the insurgents at the negotiating 
table.
    Sixth, another key player in any negotiations with the Taliban are 
the former leaders of the largely Tajik and Uzbek Northern Alliance who 
fought a bitter several-years war with the Taliban and who now occupy 
prominent positions in Afghanistan, for instance, the Minister of the 
Interior, Bismullah Khan, and Dr. Abdullah, Karzai's main rival for the 
Presidency in 2009, who is--at least for now--the most likely candidate 
to succeed Karzai in the 2014 Presidential elections. These leaders are 
not going to allow all they fought for to be reversed by a deal with 
the Taliban that gives them significant concessions on territory or 
principle. Dr. Abdullah is withering in his assessment of Karzai's 
olive branches to the Taliban who Karzai has described as his 
``brothers,'' saying to me that this simply confuses ``our own soldiers 
which are fighting'' the Taliban.
    Seventh, the several meetings over the past 3 years between Afghan 
officials and Taliban representatives to discuss ``reconciliation'' in 
Mecca and in the Maldives have hitherto produced a big zero. A senior 
U.S. military officer dismissed these talks as ``reconciliation 
tourism,'' while an Afghan official joked with me that in landlocked 
Afghanistan, ``Everybody wanted to go to the Maldives for a meeting.''
    Eighth, the debacle involving Mullah Akhtar Muhammad Mansour last 
year shows how much of a fog surrounds the whole reconciliation 
process.\51\ Mullah Mansour was portrayed as one of the most senior of 
the Taliban leaders who was allegedly in direct negotiations with the 
Karzai government in the fall of 2010. Except it then turned out he 
wasn't Mullah Mansour at all, but a Quetta shopkeeper who had spun a 
good yarn about his Taliban credentials so he could pick up what a 
British Government report characterizes as ``significant sums.'' \52\
    Finally, and most importantly: what do the Taliban really want? 
It's relatively easy to discern what they don't want: international 
forces in Afghanistan. But other than their blanket demand for the rule 
of sharia law, the Taliban have not articulated their vision for the 
future of Afghanistan. Do they envision a democratic state with 
elections? Do they see a role for women outside the home? What about 
education for girls? What about ethnic minorities?
    Richard Barrett, a British diplomat who heads the United Nations' 
group that monitors al-Qaeda and the Taliban, pointed out at a 
conference at the New America Foundation last year that ``it's 
difficult to deal with an insurgent group, which doesn't actually put 
forward any real policy.'' A similar point was made by Mohammad 
Stanikhzai, the point person in the Afghan Government dealing with the 
Taliban, when I met with him in December, who explained, ``For the 
governance, I don't think they [the Taliban] have a clear plan.''

    7. Given these problems, why try and negotiate with the Taliban, 
and are there reasons to think those negotiations might eventually 
work?
    Reaching an accommodation with the Taliban is going to be quite 
difficult, but that doesn't, of course, mean that it isn't worth 
trying. Even if peace talks are not successful immediately, they can 
have other helpful effects, such as splitting the facade of Taliban 
unity. Even simple discussions about the future shape of negotiations 
can help sow dissension in the Taliban ranks, while if such discussions 
do move forward in even incremental steps more intelligence can be 
garnered about what exactly is going on inside the shadowy Taliban 
movement. Also, getting the Taliban to enter into any negotiations 
means that they will no longer get to occupy the moral high ground of 
fighting a supposed holy war, but are instead getting their hands dirty 
in more conventional political back-room deals.
    Audrey Cronin of the National Defense University has systematically 
examined how and why terrorist/insurgent groups come to some kind of 
peace deal and has laid out some general principles about what that 
usually takes, which are worth considering in the context of 
Afghanistan.\53\ First, there must be recognition on both sides that a 
military stalemate has been reached. (In the early 1980s the American 
academic William Zartman coined the term a ``mutually hurting 
stalemate'' to describe the moment when combatants will start 
considering a peace settlement.) \54\ That recognition may now exist to 
some degree, given that over the past 6 months or so the Taliban have 
taken heavy losses in their heartlands of Kandahar, while the U.S. 
public has increasingly turned against what is already America's 
longest war. In March, 64 percent of Americans said the war was ``not 
worth fighting,'' up from 41 percent in 2007.\55\
    An important shift in the Obama administration's stance on Taliban 
negotiations was recently signaled by Secretary of State Hillary 
Clinton. While giving the Richard Holbrooke memorial lecture at the 
Asia Society in New York on February 18, Clinton said that previous 
American conditions for talks with the Taliban--that they lay down 
their arms, reject al-Qaeda, and embrace the Afghan Constitution--were 
no longer preconditions that the Taliban had to meet before 
negotiations could begin, but were ``necessary outcomes'' of the final 
peace process.\56\ Judging by the lack of media attention in the States 
at the time to this shift, this subtle but important distinction was 
probably also not well grasped by the Taliban, but it does represent a 
somewhat more flexible American position about dealing with the 
Taliban. Indeed, U.S. officials are already in some kind of talks with 
Taliban representatives, according to reports in the New Yorker and 
Washington Post.\57\
    Similarly the Afghan Government has now adopted ``reconciliation'' 
as its official policy, setting up a ``High Peace Council'' in the fall 
to help facilitate those negotiations, a body that is made up, in part, 
of a number of leaders from the former Northern Alliance who are less 
likely to act as spoilers of a peace process if they feel they are a 
part of it.
    Successful negotiations often require a capable and trusted third-
party sponsor. This condition seems also to be lacking right now: the 
Saudis are, at best, lukewarm about facilitating talks with the 
Taliban; the Pakistanis are not really trusted by any of the parties in 
the conflict, even by much of the Taliban, and while the United Nations 
may have some role to play in negotiations, Taliban attacks on U.N. 
personnel in Afghanistan last year don't suggest this avenue has much 
immediate promise. (Murmurings about a role for Turkey in facilitating 
a deal may have some potential given that Turkey has an Islamist 
government and is also a key member of NATO.)
    A peace deal also generally requires strong leadership on both the 
government and insurgent sides to force a settlement. Neither Hamid 
Karzai nor Mullah Omar fit this particular bill. Finally, Cronin 
explains that the overall political context must be favorable to 
negotiations for a deal to succeed. Here there is some real hope: While 
fewer then one in ten Afghans have a favorable view of the Taliban, a 
large majority is in favor of negotiating with them. Nationally, around 
three-quarters of Afghans favor talks, while in Kandahar the number 
goes up to a stratospheric 94 percent.\58\
    All that said, the bottom line on the Taliban reconciliation 
process is that nothing of any real note is currently happening. 
According to a Western official familiar with the record of discussions 
with the Taliban, the chances of a deal with the Taliban similar to the 
Dayton Accords that ended the Balkans war in the mid-1990s or the Good 
Friday Agreement that ended the IRA campaign against the British 
Government are ``negligible'' for the foreseeable future. The official 
says that Mullah Omar needs his council of ulema (religious scholars) 
to sign off on a peace deal and there is ``no sign of this right now.'' 
Senior U.S. military officials tell me that it is their view that 
Mullah Omar is living at least some of the time in the southern 
Pakistani megacity of Karachi.

    8. Might the Haqqani or Hezb-e-Islami (Gulbuddin Hekmatyar) 
factions of the Taliban be willing to consider a settlement?
    This is relatively plausible given that Hezb-e-Islami (Party of 
Islam) has long shown a far greater inclination to engage in 
conventional politics than the other insurgent groups. Hezb-e-Islami 
has a more nuanced take than other insurgent groups about what its 
preconditions are for talks with the Afghan Government; while much of 
the Taliban want foreign forces out before real talks can begin, Hezb-
e-Islami has indicated that talks can begin in parallel with a 
timetable for withdrawal being agreed upon. For the moment, the 
Haqqanis are probably irreconcilable as they are too close to al-Qaeda.

    9. There is an agglomeration of extremist groups operating in the 
lawless region near the Afghanistan-Pakistan border, including the 
Pakistani Taliban, al-Qaeda, and other affiliated and other sectarian 
groups. How should policymakers prioritize which of these to work 
against?
    Policymakers should prioritize those South Asian groups that now 
threaten the West. One of bin Laden's most toxic legacies is that even 
terrorist groups that don't call themselves ``al-Qaeda'' have adopted 
his ideology. According to Spanish prosecutors, the late leader of the 
Pakistani Taliban, Baitullah Mehsud, sent a team of would-be suicide 
bombers to Barcelona to attack the subway system there in January 2008. 
A Pakistani Taliban spokesman confirmed this in a videotaped interview 
in which he said that those suicide bombers ``were under pledge to 
Baitullah Mehsud'' and were sent because of the Spanish military 
presence in Afghanistan.
    In 2009 the Pakistani Taliban trained an American recruit for an 
attack in New York. Faisal Shahzad, who had once worked as a financial 
analyst in the accounting department at the Elizabeth Arden cosmetics 
company in Stamford, CT, travelled to Pakistan where he received 5 days 
of bombmaking training from the Taliban in the tribal region of 
Waziristan. Armed with this training and $12,000 in cash, Shahzad 
returned to Connecticut where he purchased a Nissan Pathfinder. He 
placed a bomb in the SUV and detonated it in Times Square on May 1, 
2010, around 6 p.m., when the sidewalks were thick with tourists and 
theatergoers. The bomb, which was designed to act as a fuel-air 
explosive, luckily was a dud and Shahzad was arrested 2 days later as 
he tried to leave JFK airport for Dubai.\59\
    Also based in the Pakistani tribal regions are a number of other 
jihadist groups allied to both the Taliban and al-Qaeda, such as the 
Islamic Movement of Uzbekistan and the Islamic Jihad Union that have 
trained dozens of Germans for attacks in Europe. Two Germans and a 
Turkish resident in Germany, for instance, trained in the tribal 
regions and then planned to bomb the massive U.S. Ramstein Airbase in 
Germany in 2007. Before their arrests, the men had obtained 1,600 
pounds of industrial strength hydrogen peroxide, enough to make a 
number of large bombs.\60\
    The Mumbai attacks of 2008 showed that bin Laden's ideas about 
attacking Western and Jewish targets had also spread to Pakistani 
militant groups such as Lashkar-e-Taiba (LeT), which had previously 
focused only on Indian targets. Over a 3-day period in late November 
2008 LeT carried out multiple attacks in Mumbai targeting five-star 
hotels housing Westerners and a Jewish-American community center. The 
Pakistani- American David Headley played a key role in LeT's massacre 
in Mumbai, traveling to the Indian financial capital on five extended 
trips in the 2 years before the attacks. There Headley made videotapes 
of the key locations later attacked by the 10 LeT gunmen.\61\
    Sometime in 2008, Headley hatched a plan to attack the Danish 
newspaper Jyllands-Posten, which 3 years earlier had published cartoons 
of the Prophet Mohammed that were deemed to be offensive by many 
Muslims. In January 2009 Headley traveled to Copenhagen, where he 
reconnoitered the Jyllands-Posten newspaper on the pretext that he ran 
an immigration business that was looking to place some advertising in 
the paper. Following his trip to Denmark, Headley met with Ilyas 
Kashmiri in the Pakistani tribal regions to brief him on his findings. 
Kashmiri ran a terrorist organization, Harakat-ul-Jihad Islami, closely 
tied to al-Qaeda. Headley returned to Chicago in mid-June 2009 and was 
arrested there 3 months later as he was preparing to leave for Pakistan 
again. He told investigators that he was planning to kill the Jyllands-
Posten's cultural editor who had first commissioned the cartoons, as 
well as the cartoonist Kurt Westergaard who had drawn the cartoon he 
found most offensive; the Prophet Mohammed with a bomb concealed in his 
turban.\62\
    One of the more predictable foreign policy challenges of the next 
years is a ``Mumbai II'': a large-scale attack on a major Indian city 
by a Pakistani militant group that kills hundreds. The Indian 
Government showed considerable restraint in its reaction to the 
provocation of the Mumbai attacks in 2008. Another such attack, 
however, would likely produce considerable political pressure on the 
Indian Government to ``do something.'' That something would likely 
involve incursions over the border to eliminate the training camps of 
Pakistani militant groups with histories of attacking India. That could 
lead in turn to a full-blown war for the fourth time since 1947 between 
India and Pakistan. Such a war would involve the possibility of a 
nuclear exchange and the certainty that Pakistan would move substantial 
resources to its eastern border and away from fighting the Taliban on 
its western border, relieving pressure on all the militant groups based 
there, including al-Qaeda.
    The Pakistani Taliban, Lashkar-e-Taiba, Harakat-ul-Jihad Islami, 
the Islamic Jihad Union and the Islamic Movement of Uzbekistan are all 
based or have a significant presence in Pakistan's tribal regions and 
have track records of trying to attack Western and/or American targets 
and should therefore all be considered threats to American interests.

----------------
References

    \1\ Barack Obama, ``Remarks by the President on a New Strategy for 
Afghanistan and Pakistan,'' Washington, DC, March 27, 2009, (http://
www.whitehouse.gov/the_press_office/Remarks-by-the-President-on-a-New-
Strategy-for-Afghanistan-and-Pakistan/).
    \2\ Barbara Crossette, ``Rights Group Tells of Taliban Massacres,'' 
New York Times, February 19, 2001, (http://www.nytimes.com/2001/02/19/
world/rights-group-tells-of-taliban-massacres.
html).
    \3\ Jane Perlez and Pir Zubair Shah, ``Truce in Pakistan May Not 
Mean Peace, Just Leeway for Taliban,'' New York Times, March 5, 2009, 
(http://www.nytimes.com/2009/03/06/world/asia/06swat.html).
    \4\ United Nations Assistance Mission to Afghanistan, ``Protection 
of Civilians in Armed Conflict: Annual Report 2010,'' March 2011, 
Kabul,Afghanistan. (http://unama.unmissions.org/Portals/UNAMA/
human%20rights/March%20PoC%20Annual%20Report%20Final.pdf).
    \5\ Matthew Green and Fazel Reshad, ``Gunmen Storm Afghan Bank,'' 
Financial Times, February 20, 2011, http://www.ft.com/intl/cms/s/0/
1745ec92-3c29-11e0-b073-00144feabdc0.html).
    \6\ MSNBC.com, ``Afghan Schoolgirls Poisoned by Taliban?'' April 
25, 2010, (http://www.msnbc.msn.com/id/36766873/ns/world_news-
south_and_central_asia/t/afghan-schoolgirls-poisoned-taliban/); Rod 
Nordland, ``Poison Gas Targeted Afghan Girls' Schools,'' New York 
Times, September 1, 2010, (http://articles.boston.com/2010-09-01/news/
29333377_1_poison-gas-afghan-girls-new-cases).
    \7\ Robert Blackwill, ``Plan B in Afghanistan,'' Foreign Affairs, 
January/February 2011, (http://www.foreignaffairs.com/articles/67026/
robert-d-blackwill/plan-b-in-afghanistan).
    \8\ Crispin Bates, ``The Hidden Story of Partition and its 
Legacies,'' BBC News, March 3, 2011, (http://www.bbc.co.uk/history/
british/modern/partition1947_01.shtml).
    \9\ Morten Sisgaard (ed), ``On the Road to Resilience: Capacity 
Development With the Ministry of Education in Afghanistan,'' United 
Nations, 2011, (http://www.iiep.unesco.org/fileadmin/user_upload/
Info_Services_Publications/pdf/2011/Afghanistan_Resilience.pdf).
    \10\ World Bank, ``Growth in Afghanistan,'' (http://
web.worldbank.org/WBSITE/EXTERNAL/COUNTRIES/ SOUTHASIAEXT/
EXTSARREGTOPMACECOGRO/0,,content MDK:20592478 
menuPK:579404pagePK:34004173piPK:34003707theSitePK:579398,00.html).
    \11\ USAID, ``Afghanistan,'' (http://www.usaid.gov/locations/asia/
countries/afghanistan/).
    \12\ International Telecommunications Union, ``Mobile Cellular 
Subscriptions,'' (http://www.itu.
int/ITU-D/ict/statistics/material/excel/MobileCellularSubscriptions00-
09.xls).
    \13\ BBC News, ``Afghanistan Media Profile,'' December 16, 2010, 
(http://www.bbc.co.uk/news/world-south-asia-12013942).
    \14\ Ben Farmer, ``Kabul To Move to Five Day Week,'' Daily 
Telegraph, December 1, 2010,
(http://www.telegraph.co.uk/news/worldnews/asia/afghanistan/8174072/
Kabul-to-move-to-five-day-week.html).
    \15\ BBC, October 29-November 13, 2010, (http://news.bbc.co.uk/2/
shared/bsp/hi/pdfs/06_12_
10_afghanpoll.pdf).
    \16\ CBS News/New York Times Poll, April 15-20, 2011, (http://
www.pollingreport.com/right.
htm).
    \17\ BBC 2010 op. cit.
    \18\ BBC, February 25-March 5, 2007, (http://news.bbc.co.uk/2/
shared/bsp/hi/pdfs/19_03_
07_iraqpollnew.pdf).
    \19\ International Security Assistance Force, ``Afghan-Led Force 
Clears Enemy Safe Haven in Kandahar,'' September 17, 2010, (http://
www.isaf.nato.int/article/isaf-releases/afghan-led-force-clears-enemy-
safe-haven-in-kandahar.html) for example.
    \20\ International Council on Security and Development, 
``Afghanistan Transition: Dangers of a Summer Drawdown,'' February 
2011, (http://www.icosgroup.net/static/reports/afghanistan_
dangers_drawdown.pdf).
    \21\ David Petraeus, Testimony before the Senate Armed Services 
Committee, March 15, 2011, (http://www.isaf.nato.int/images/stories/
File/Transcript/Petraeus%2003-15-11.pdf).
    \22\ Con Coughlin, ``Karzai Must Tell Us Which Side He's on in 
Afghanistan,'' Daily Telegraph, November 18, 2010, (http://
www.telegraph.co.uk/comment/columnists/concoughlin/8144423/Karzai-must-
tell-us-which-side-hes-on-in-Afghanistan.html).
    \23\ Thomas Ruttig, forthcoming, New America Foundation, May 2011.
    \24\ David Cloud, ``Officials Aim To Establish Local Afghan Police 
Force by March,'' Los Angeles Times, October 19, 2010, (http://
articles.latimes.com/2010/oct/19/world/la-fg-village-police-20101020).
    \25\ Karen DeYoung and Rajiv Chandrasekaran, ``Afghan President 
Karzai Approves Plan for Local Defense Forces,'' Washington Post, July 
15, 2010, (http://www.washingtonpost.com/wp-dyn/content/article/2010/
07/14/AR2010071406007.html).
    \26\ IntelCenter, a U.S. government contractor that tracks jihadist 
publications, says bin Laden released 33 tapes in the eight years 
between 9/11 and January 2010. IntelCenter Breakout of as-Sahab audio/
video, 2002-26 February 2010. E-mail from Ben Venzke, February 26, 
2010.
    \27\ ``Istanbul Rocked by Double Bombing,'' BBC News, November 20, 
2003, (http://news.bbc.co.uk/2/hi/europe/3222608.stm); Craig Whitlock 
and Susan Glasser, ``On Tape, bin Laden Tries New Approach,'' 
Washington Post, December 17, 2004. (http://www.washingtonpost.com/wp-
dyn/articles/A3927-2004Dec16.html);'' Joel Roberts, ``Al Qaeda 
Threatens More Oil Attacks,'' CBS News, February 25, 2006, (http://
www.cbsnews.com/stories/2006/02/27/world/main1346541_page2.shtml); 
``Bin Laden Tape Encourages Pakistanis To Rebel,'' Associated Press, 
September 20, 2007, (http://www.usatoday.com/news/world/2007-09-20-al-
Qaeda-video_N.htm).
    \28\ Mark Mazzetti and Scott Shane, ``Data Show bin Laden Plots,'' 
New York Times, May 5, 2011, (http://www.nytimes.com/2011/05/06/world/
asia/06intel.html).
    \29\ Substitution for the testimony of KSM, trial of Zacarias 
Moussaoui, (http://en.wikisource.org/wiki/
Substitution_for_the_Testimony_of_KSM).
    \30\ Jean Sasson and Omar and Najwa bin Laden, ``Growing Up Bin 
Laden'' (St. Martin's Press: New York, NY, 2009), p. 161 and 213.
    \31\ Jamal Ismail, interview by author, July 29, 2004, Islamabad, 
Pakistan.
    \32\ Peter Bergen, ``Egyptian Saif al-Adel Now Acting Leader of al-
Qaeda,'' CNN.com, May 17, 2011, (http://articles.cnn.com/2011-05-17/
world/mideast.al.qaeda.appointee_1_al-adel-al-qaeda-libyan-islamic-
fighting-group?_s=PM:WORLD).
    \33\ Douglas Farah and Dana Priest, ``Bin Laden Son Plays Key Role 
in al-Qaeda,'' Washington Post, October 14, 2003, (http://
www.washingtonpost.com/wp-dyn/content/article/2007/08/20/
AR2007082000980.html).
    \34\ Reza Sayah, ``Blasts Kill at Least 70 in Northwest Pakistan,'' 
CNN.com, May 12, 2011, (http://articles.cnn.com/2011-05-12/world/
pakistan.explosions_1_drone-strikes-north-waziristan-
militants?_s=PM:WORLD).
    \35\ Abdel Bari Atwan, interview by author, London, U.K., June 
2005.
    \36\ Richard Oppel, Mark Mazzetti, and Souad Mekhennet, ``Attacker 
in Afghanistan Was a Double Agent,'' New York Times, January 4, 2010, 
(http://www.nytimes.com/2010/01/05/world/asia/05cia.html).
    \37\ ``An interview with the Shaheed Abu Dujaanah al Khorshani 
(Humam Khalil Abu-Mulal al-Balawi),'' February 28, 2010, NEFA 
Foundation.
    \38\ Stephen Farrell, ``Video Links Taliban to CIA Attack,'' New 
York Times, January 9, 2010. (http://www.nytimes.com/2010/01/10/world/
middleeast/10balawi.html).
    \39\ Melissa McNamara, ``Taliban leader Vows To Force U.S. Out,'' 
CBS News, December 29, 2006, (http://www.cbsnews.com/stories/2006/12/
29/eveningnews/main2313745.shtml).
    \40\ Jake Tapper, ``CIA: At Most, 50-100 Al-Qaeda in Afghanistan,'' 
June 27, 2010, (http://blogs.abcnews.com/politicalpunch/2010/06/cia-at-
most-50100-al-qaeda-in-afghanistan.html).
    \41\ State Department, Foreign Terrorist Organizations, May 19, 
2011, (http://www.state.gov/s/ct/rls/other/des/123085.htm).
    \42\ MG Michael Flynn, ``State of the Insurgency,'' December 22, 
2009, (http://www.wired.com/images_blogs/dangerroom/2010/01/isaf-state-
of-the-insurgency-231000-dec.ppt).
    \43\ Matthew Cole, ``Top al-Qaeda Commander Killed in 
Afghanistan,'' ABC, April 26, 2011, (http://abcnews.go.com/Blotter/top-
al-qaeda-commander-killed-afghanistan/story?id=13459489).
    \44\ Anne Stenersen, ``Al-Qaeda's Allies,'' New America Foundation, 
April 19, 2010, (http://newamerica.net/publications/policy/
al_qaeda_s_allies).
    \45\ Lawrence Wright, ``The Looming Tower'' (Random House: New 
York, NY, 2006), 256.
    \46\ ``Interview With the Commander in Charge of Eastern 
Afghanistan, the Respected Mawlawee Abdul Kabir,'' January 21, 2011, 
Al-Qimmah.net, accessed May 23, 2011.
    \47\ Steve Coll, ``U.S.-Taliban Talks,'' New Yorker, February 28, 
2011, (http://www.new
yorker.com/talk/comment/2011/02/28/110228taco_talk_coll).
    \48\ Joe Sterling, ``Richard Holbrooke, Noted Diplomat, is Dead at 
69,'' CNN.com, December 13, 2010, (http://articles.cnn.com/2010-12-11/
us/richard.holbrooke.obit_1_richard-c-holbrooke-diplomat-bosnian-war/
4?_s=PM:US).
    \49\ Mansur Khan Mahsud, ``The Battle for Pakistan: Militancy and 
Conflict in South Waziristan,'' New America Foundation, April 19, 2010, 
(http://counterterrorism.newamerica.net/publications/policy/
the_battle_for_pakistan_south_waziristan).
    \50\ Mark Mazzetti and Dexter Filkins, ``Secret Joint Raid Captures 
Taliban's Top Commander,'' New York Times, February 15, 2010, (http://
www.nytimes.com/2010/02/16/world/asia/16intel.
html).
    \51\ Dexter Filkins and Carlotta Gall, ``Taliban Leader in Secret 
Talks Was an Impostor,'' New York Times, November 22, 2010, (http://
www.nytimes.com/2010/11/23/world/asia/23kabul.html).
    \52\ United Kingom, House of Commons, Foreign Affairs Committee, 
``The U.K.'s Foreign Policy Approach to Afghanistan and Pakistan,'' 
March 2, 2011, (http://www.publications.parliament.uk/pa/cm201011/
cmselect/cmfaff/514/514.pdf).
    \53\ Audrey Cronin, ``How Terrorism Ends'' (Princeton University 
Press: Princeton, NJ, 2009).
    \54\ William Zartman, ``Ripening Conflict, Ripe Moment, Formula, 
and Mediation,'' in D. BenDahmane and J. McDonald, eds., ``Perspectives 
on Negotiation,'' 1986.
    \55\ Washington Post-ABC News Poll, March 10-13, 2011, (http://
www.washingtonpost.com/wp-srv/politics/polls/postpoll_03142011.html).
    \56\ Alissa Rubin, ``Pressure Mounts on all Parties in the Afghan 
War To Begin Talks,'' New York Times, March 17, 2011, (http://
query.nytimes.com/gst/fullpage.html?res=9904EED7113EF
934A25750C0A9679D8B63).
    \57\ Coll op. cit.; Karen DeYoung, ``U.S. Speeds Up Direct Talks 
With Taliban,'' Washington Post, May 16, 2011, (http://
www.washingtonpost.com/world/national-security/us-speeds-up-direct-
talks-with-taliban/2011/05/16/AFh1AE5G_story.html).
    \58\ BBC, December 2010, op. cit.; Rajiv Chandrasekaran and Jon 
Cohen, ``Afghan Poll Shows Falling Confidence in U.S. Efforts To Secure 
Country,'' Washington Post, December 6, 2010, (http://
www.washingtonpost.com/wp-dyn/content/article/2010/12/06/
AR2010120601788.html).
    \59\ Benjamin Weiser and Colin Moynihan, ``Guilty Plea in Times 
Square Bomb Plot,'' New York Times, June 21, 2010, (http://
www.nytimes.com/2010/06/22/nyregion/22terror.html).
    \60\ ``Four Jailed Over Plot To Attack U.S. Bases,'' Associated 
Press, March 4, 2010, (http://www.msnbc.msn.com/id/35702791/ns/
world_news-europe/t/four-jailed-over-plot-attack-us-bases/).
    \61\ USA v. David Coleman Headley, U.S. District Court Northern 
District of Illinois Eastern Division, Case No. 09 CR 830.
    \62\ Sebastian Rotella, ``Pakistan's Terror Connections,'' 
ProPublica, (http://www.propublica.org/topic/mumbai-terror-attacks/).

    The Chairman. Thank you very much.
    Mr. Pillar.

 STATEMENT OF PAUL PILLAR, PH.D., DIRECTOR OF GRADUATE STUDIES 
  AND FACULTY MEMBER, CENTER FOR PEACE AND SECURITY STUDIES, 
             GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Pillar. Thank you, Mr. Chairman. The Afghanistan-
Pakistan region has understandably been linked in American 
minds with extremism and terrorism for quite some time, but 
this link is not based on the inherent qualities of the region 
or the conflicts that bedevil it. There is no intrinsic 
connection between Afghanistan and international terrorism. In 
fact, Afghan nationals have been conspicuously rare in the 
ranks of international terrorists. Najibullah Zazi, whom you 
mentioned in your opening statement, Mr. Chairman, is a rare 
exception, but even he left Afghanistan at age 7 and lived in 
the United States since he was 14.
    What we know today as the Afghan Taliban constitute a 
highly insular, inward-looking group that is concerned 
overwhelmingly with the political and social order of 
Afghanistan; the leadership, that is, is so concerned. It 
concerns itself with the United States insofar as the United 
States interferes with its plans for that political and social 
order. The motives of the rank and file who have taken up arms 
under the Taliban label are at least as locally focused as 
those of the leadership, and probably hardly any of them have 
any perspectives that reach beyond Afghanistan's borders.
    The key point, in other words, is that the Afghan Taliban 
are not an international terrorist group. The connection 
between Afghan Taliban and al-Qaeda is an aspect largely of 
1990s-era history. Back then, before 9/11, bin Laden provided 
material and manpower assistance to the Taliban as it waged a 
civil war against the Northern Alliance, and of course the 
Taliban provided hospitality to bin Laden in return. It was 
largely a marriage of convenience, even though they both had 
radical, although by no means identical, ideologies.
    As for any prospect of the Taliban and al-Qaeda 
reestablishing anything like that marriage that they had back 
in the 1990s, Taliban leaders are acutely aware that the 
biggest setback their movement ever suffered, their being swept 
from power in the opening weeks of Operation Enduring Freedom, 
was a direct result of an operation conducted by al-Qaeda. They 
have no incentive to do anything to facilitate a repeat of that 
experience.
    Besides, both the Taliban and al-Qaeda are well aware of 
the fact that the standards for the use of military force, 
United States military force, in Afghanistan have changed 
drastically since pre-9/11 days. Unlike back then, the 
establishment of anything remotely resembling al-Qaeda's 
earlier presence in Afghanistan would become a target for 
unrestricted use of United States air power, and that would be 
true whether or not the United States was conducting a 
counterinsurgency on the ground.
    I agree with Peter that bin Laden's death does affect the 
calculations of the Taliban's leadership, mainly for the 
reasons that Peter mentioned: that the previous gratitude of 
Mullah Omar and the Taliban leadership was more to bin Laden 
personally than to the al-Qaeda group. I would just add that 
probably also entering the Taliban leaders' calculations are 
the implication of the raid against bin Laden for what the 
United States is able and willing to do to hit targets 
important to it, even targets nestled deep inside Pakistan. And 
it can't have escaped the Taliban leaders' notice with regard 
to what that means for what we might do in Quetta or elsewhere.
    Finally, a word about what the successful U.S. operation 
against bin Laden indicates regarding the role of U.S. military 
forces in counterterrorism, including what this means for 
collecting the necessary intelligence. The raid at Abbottabad 
deep inside Pakistan illustrated that United States military 
boots on the ground are not necessary for even the precise type 
of intelligence required for such an operation. The same 
point's been, of course, repeatedly demonstrated by the drone 
strikes in the Northwest.
    Collection of intelligence is certainly an important part 
of counterinsurgency, but it is almost all intelligence 
pertinent to the counterinsurgency itself, rather than 
intelligence relating to terrorism that would hit the United 
States elsewhere. The intelligence work that reportedly 
underlay the successful operation was typical of the work aimed 
at terrorist targets. It involved piecing together fragments of 
information from a variety of technical and human sources and 
following up leads through intelligence and law enforcement 
resources.
    Interrogation of captured detainees is often part of that 
mix, but the most important detainees, such as 9/11 mastermind 
Khalid Sheikh Mohammed, have been captured, not on a 
battlefield in the course of an insurgency, but instead as the 
result of themselves having been the targets of this kind of 
painstaking multisource intelligence work.
    Clearly, the raid demonstrated the usefulness of nearby 
military assets, but those are not the large forces involved in 
a counterinsurgency. Rather, they involve drone bases, bases 
for launching the kind of raid that took place at Abbottabad, 
and that is something far different.
    Thank you and I look forward to your questions.
    [The prepared statement of Dr. Pillar follows:]

                  Prepared Statement of Paul R. Pillar

    South Asia, and more particularly the portion of it encompassing 
Afghanistan and Pakistan, has come to be associated strongly with 
extremism and terrorism. That association is understandable, given the 
connection of the area with one of the most traumatic events in U.S. 
history. The lines of contention in the region are complex, however. 
Different dimensions of conflict there, such as between moderation and 
extremism, or what may pose a terrorist threat to the United States and 
what does not, do not coincide with each other.
                     the afpak region and terrorism
    The connection of this region with militant Islamist terrorism is 
rooted in the insurgency against the Soviets in Afghanistan in the 
1980s. That insurgency became the biggest and most prominent jihad, 
attracting militant Muslims from many different countries. Although the 
anti-U.S. terrorist group we came to know as
al-Qaeda did not develop as such until the late 1990s, its connection 
with Afghanistan and South Asia is based on the earlier effort against 
the Soviets. When Osama bin Laden left Sudan to take up residence in 
Afghanistan in 1996, he was returning to the scene of his earlier 
contribution, which was chiefly logistical, in helping the Afghan 
insurgents to defeat the Red Army.
    There is no intrinsic connection between Afghanistan and 
international terrorism. In fact, Afghan nationals are conspicuously 
absent from the ranks of international terrorists. A rare exception was 
Najibullah Zazi, who was arrested in 2009 for allegedly plotting to 
bomb the New York City transit system. But even Zazi had left 
Afghanistan with his family for Pakistan when he was 7 years old, and 
he had lived in the United States since he was 14.
    Pakistan has developed its own connections with international 
terrorism. This has included groups, most notably Lashkar-e-Taiba, with 
some capability to operate far afield. But the primary focus is still 
within South Asia, and specifically on the Kashmir dispute and other 
aspects of confrontation with India.
    In short, the link between this region and international terrorism 
is not based on inherent qualities of the region or of the conflicts 
that bedevil it. Instead it is more of a historical accident related to 
an attempt by the Soviet Union to quell an insurgency in a bordering 
state, with the link greatly enhanced in American minds by the 
residence in Afghanistan--10 years and more ago--of people associated 
with the 9/11 terrorist attack.
    Current violence in Afghanistan is a continuation of an Afghan 
civil war that began after a coup by Marxist-Leninists in 1978 and, 
although the lineup of protagonists has changed from time to time, has 
never really stopped. After the departure of the Soviets in 1989, the 
fall of the pro-Soviet Najibullah regime in 1992, and internecine 
fighting among the warlords who had pursued the insurgency, a new 
movement known as the Taliban--benefiting from Pakistani backing and 
the support of an Afghan public disgusted by the warlords' violent 
squabble--asserted control by the mid-1990s over all but the northern 
tier of the country. The civil war continued as a fight between the 
Taliban and a mostly non-Pashtun collection of militias known as the 
Northern Alliance. The intervention in late 2001 of a U.S.-led 
coalition, in what we call Operation Enduring Freedom, was a tipping of 
the balance in this civil war. It was enough of a tip for the Northern 
Alliance to overrun Kabul and to drive the Taliban from power.
    The current phase of the Afghan civil war, although commonly seen 
as a fight between the internationally backed government of Hamid 
Karzai and a terrorist-associated Afghan Taliban, is a far more 
complicated affair with multiple dimensions. The ethnic element is a 
large part of the conflict, with the Taliban largely Pashtun and other 
ethnic groups having a major role in the government forces. Other 
relevant divides are between Sunni and Shia and between rural interests 
and the urban elite.
                           the afghan taliban
    The Afghan Taliban constitute a highly insular, inward-looking 
movement whose leadership is concerned overwhelmingly with the 
political and social order of Afghanistan. It concerns itself with the 
United States only insofar as the United States interferes with its 
plans for that political and social order. It is a loosely organized 
movement in which the leadership group known as the Quetta Shura, led 
by Mullah Omar, is the most important but not the sole point of 
decisionmaking.
    The motives of the rank and file who have taken up arms under the 
Taliban label are diverse and at least as locally focused as those of 
the leadership. Those motives include assorted grievances such as ones 
associated with collateral damage from military operations and 
resentment over what is seen as foreign military occupation. Probably 
few of the rank and file are driven primarily by a religiously based 
desire to remake the Afghan political order, and hardly any of them 
have perspectives that reach beyond Afghanistan's borders.
    The Afghan Taliban are not an international terrorist group. They 
have not conducted terrorist operations outside Afghanistan. There is 
nothing in their record or their objectives that suggests that they 
will.
                        the taliban and al-qaeda
    The connection between the Afghan Taliban and al-Qaeda is an aspect 
of 1990s-era history. As the Taliban leaders were in the midst of their 
war against the Northern Alliance, and bin Laden was establishing a new 
home for himself and his followers after leaving Sudan, each side had 
something to offer the other. Bin Laden provided resources and manpower 
to the Taliban's prosecution of the civil war. The Taliban provided bin 
Laden hospitality. Although the two sides both had radical (though 
hardly identical) Islamist ideologies, the relationship was largely a 
marriage of convenience, and not without frictions.
    The basis for the marriage is largely gone. The Taliban cannot 
provide the hospitality they did when they were the government of 
three-fourths of Afghanistan. Bin Laden (before his death) and what is 
left of his organization within the region can provide little material 
support. As U.S. officials have repeatedly observed, there is minimal 
al-Qaeda presence in Afghanistan, with personnel numbering only in the 
scores.
    Any prospect for the Taliban and al-Qaeda to reestablish anything 
like the relationship they had in the years prior to 9/11 is severely 
constrained by the changes (some of them irreversible) that have since 
taken place in all of the parties concerned: the Taliban, al-Qaeda, and 
the United States. Taliban leaders are acutely aware that the biggest 
setback their movement has ever suffered--their being swept from power 
in the opening weeks of Operation Enduring Freedom--was a direct 
response to an al-Qaeda operation. They have no incentive to do 
anything that would facilitate a repeat of that experience. Al-Qaeda 
leaders are also unlikely to perceive an advantage in having more of a 
presence on the northwest side of the Durand Line than they already do 
on the southeast side of it. This is especially so because the Taliban 
and al-Qaeda alike know that the standards for use of U.S. military 
force in Afghanistan have changed drastically since pre-9/11 days. 
Unlike back then, the reestablishment of anything remotely resembling 
al-Qaeda's earlier presence in Afghanistan would become a target for 
unrestricted use of U.S. air power. This would be true whether or not 
the United States was still waging a counterinsurgency on the ground in 
Afghanistan. And such use of force would be far greater than the still 
major restrictions on anything the United States can do militarily in 
Pakistan.
      the afpak theater and terrorist threats to the united states
    Bin Laden never intended whatever organization he controlled to be 
the entire story as far as jihadist terrorism is concerned. The very 
name of his group--
al-Qaeda, or ``The Base''--implies that it would instead be a 
foundation or starting point from which bigger things would grow. This 
in fact is what happened. The overall violent jihadist movement to 
which the name ``al-Qaeda'' is customarily but loosely applied now goes 
well beyond anything bin Laden controlled or that his surviving 
associates in South Asia have been directing. Bin Laden's role in 
recent years was far more as a source of inspiration, ideology, and 
ideas (including operational ideas) than command and control. This role 
was confirmed by what has so far become publicly known about the 
material seized in the raid at Abbottabad.
    Most of the initiative, planning, and preparations for terrorist 
operations under the al-Qaeda label in recent years has come from 
outside South Asia. Some of it has come from formally named 
affiliates--most notably, though not exclusively, from the Yemen-based 
group calling itself Al Qaeda in the Arabian Peninsula. Some has come 
from less formally affiliated groups and individuals, including during 
the past few years several individuals in the United States. Even 
though ``links'' are sometimes traced back to South Asia, the 
initiative is largely coming from the periphery.
    This pattern implies that the situation on the ground in the AfPak 
region is not one of the more important factors determining the degree 
of terrorist threat to Americans. To the extent that control of a piece 
of real estate matters, whether that real estate is in Afghanistan is 
hardly critical. Other places, such as Yemen, are available. This is in 
addition to the question of how much the control of any piece of real 
estate affects terrorist threats. A lesson from terrorist operations in 
recent years--including 9/11, most of the preparations for which took 
place well away from South Asia, including in Western cities--is that 
the effect is less than that of many other factors shaping terrorist 
threats, and that virtual space is more important than physical space 
in planning and coordinating terrorist operations. The point is not 
that terrorist groups will not use physical space when they have it--
they do--but that it is not one of the more important determinants of 
how capable they are and how much of a threat they pose.
                      impact of bin laden's death
    The demise of bin Laden ends a period of well over a decade in 
which this most wanted of men was able in effect to thumb his nose at 
the United States and the West merely by staying at large and alive for 
so long. As such, his removal has dealt a psychological blow to his 
followers. Revelation of some of the circumstances in which he had been 
living and operating (or not operating) may also help to lower somewhat 
his standing even in death. For reasons mentioned earlier, the overall 
impact of bin Laden's death on the terrorist threat facing the United 
States is not as great as the enormous reaction to this event would 
suggest. The national catharsis that the killing of bin Laden involved 
is understandable, however, and undoubtedly affects the political 
environment in which further decisions within the United States about 
the AfPak theater will be taken.
    Bin Laden's departure will affect decisions within South Asia as 
well, and particularly the Taliban leadership's calculations regarding 
al-Qaeda and negotiations to resolve the conflict in Afghanistan. Any 
sense of debt among Mullah Omar and the Taliban leaders, dating back to 
the assistance that bin Laden gave them in the 1990s, was more to bin 
Laden personally than to his group. With bin Laden gone, the Afghan 
Taliban probably feel freer than before to renounce any prospect of 
future ties with what is left of al-Qaeda. For the Taliban leaders, al-
Qaeda now means to them less a former ally in past phases of the civil 
war and more a source of potential trouble, with shades of the enormous 
trouble that al-Qaeda caused the Taliban in 2001.
    Probably also entering the Taliban leaders' calculations are the 
implications of the raid against bin Laden for what the United States 
is able and willing to do to hit targets important to it, even targets 
nestled deep inside Pakistan. What the United States did at Abbottabad 
could be done as well at Quetta or elsewhere. This fact may also 
incline the Taliban leaders more toward negotiations because of reduced 
confidence in their own security during an indefinite continuation of 
the conflict. Factoring in the Pakistani military's likely thinking--
following the embarrassment of Abbottabad, any reduced leverage of 
Pakistan against the United States, and what this may mean regarding 
future hospitality in Pakistan--would make the Taliban leaders even 
less sure of being able to wage their insurgency indefinitely from 
havens beyond the Durand Line. In brief, the net effect of bin Laen's 
death has probably been to improve the opportunities for negotiations 
to wind down the war in Afghanistan.
                  military forces and counterterrorism
    The successful U.S. operation against bin Laden sheds additional 
light on the role of U.S. military forces in counterterrorism, 
including with regard to the collection of necessary intelligence. 
Military force is one of several tools that can be used for 
counterterrorism, intelligence being another one. It can be used in 
several specific ways for counterterrorist purposes, ranging from the 
elimination of a terrorist leader, as was the case with the bin Laden 
operation, to striking back at a state that has perpetrated a terrorist 
act. And of course, the United States maintains and uses military 
forces for many other functions besides counterterrorism. Today in 
Afghanistan--although Operation Enduring Freedom began as a direct and 
justified response to a terrorist act--U.S. military forces and their 
coalition partners are performing some of those other functions, which 
involve trying to stabilize the Afghan state and waging a 
counterinsurgency that is part of the current phase of the Afghan civil 
war.
    The raid at Abbottabad, deep inside Pakistan, illustrated that U.S. 
military boots on the ground are not necessary for even the precise 
type of intelligence required for such an operation. The same point has 
been repeatedly demonstrated by the strikes against other terrorist 
targets with missiles launched from unmanned aircraft over northwest 
Pakistan. There is no reason to suppose that the forces involved in 
waging a counterinsurgency, which are large in number and focused on 
securing territory and defeating insurgents, will be a significant 
factor in collecting intelligence on international terrorism. It is not 
as if insurgents who are observed or captured on the battlefield are, 
when they are not waging a guerrilla war, involved in hatching 
international terrorist plots or even have access to those who do. 
Collection of intelligence is certainly an important part of 
counterinsurgency, but it is almost all intelligence pertinent to the 
counterinsurgency itself, not intelligence having to do with the sort 
of terrorism that might otherwise threaten Americans.
    The intelligence work that reportedly underlay the successful 
operation against bin Laden was typical of the work aimed at terrorist 
targets, although obviously the very high priority of this particular 
target meant that disproportionate time, effort, and resources were 
devoted to it. The work entails the exploitation of fragmentary 
reporting from a variety of technical and human sources. It also 
entails painstaking following up of leads through intelligence and law 
enforcement resources. Interrogation of detainees sometimes contributes 
to the mix, although the most important detainees, such as 9/11 
mastermind Khalid Sheikh Mohammed, have been captured not on a 
battlefield in the midst of an insurgency but instead as the result of 
themselves having been the targets of the same kind of painstaking, 
multisource intelligence work.
    The raid at Abbottabad points to the value of nearby military 
assets, but they are assets of a very specialized sort. They include 
staging areas or bases for the operation of drones or the launching of 
raids. They include highly skilled forces specially trained to 
accomplish the sort of task the SEALs did at bin Laden's compound. 
These are assets far different in size from a counterinsurgency force 
charged with securing large amounts of territory.
    A final consideration to remember in any discussion of the use of 
military force in counterterrorism is how such use may affect broader 
perceptions and emotions that in turn affect the propensity of some 
individuals to resort to terrorism, including anti-U.S. terrorism. The 
effects include resentment and anger in the areas immediately affected, 
particularly over unavoidable collateral damage to civilians and their 
property. We have seen much of this in the war in Afghanistan, and it 
has been reflected in the increased numbers of those willing to take up 
arms under the banner of the Taliban. The effects also include lending 
credibility to the fraudulent, but unfortunately influential, extremist 
narrative according to which the United States is determined to kill 
Muslims, occupy their lands, and plunder their resources.

    The Chairman. Thank you very much, Dr. Pillar.
    Dr. Fair.

  STATEMENT OF C. CHRISTINE FAIR, PH.D., ASSISTANT PROFESSOR, 
 CENTER FOR PEACE AND SECURITY STUDIES, GEORGETOWN UNIVERSITY, 
                         WASHINGTON, DC

    Dr. Fair. Thank you, Senator Kerry, Senator Lugar, and 
esteemed colleagues, for the opportunity to discuss Pakistan's 
militant landscape, with particular focus upon Lashkar-e-Taiba 
as I was requested to do.
    As you know, Pakistan has raised and nurtured a number of 
militant groups, Lashkar-e-Taiba being just one, to operate in 
India and in Afghanistan. These are distinct from the Pakistani 
Taliban, which has been ravaging the state, although part of 
the Pakistan Taliban does draw personnel from rebel erstwhile 
proxies. Rather than speaking of militants generally, I have 
focused upon the differences across these groups, to understand 
why Pakistan will not abandon Lashkar-e-Taiba in particular.
    To state at the outset, none of the groups that I will 
discuss will be significantly and adversely affected by Osama 
bin Laden's demise. When we disaggregate this complex militant 
market, we see that these Islamist militant groups differ 
significantly in their theological orientations and this, as 
I'm going to argue, is important.
    Al-Qaeda in Pakistan and elsewhere is Wahhabi. The Afghan 
Taliban are Deobandi. The Kashmiri groups actually draw from a 
number of traditions, including Hizb-ul-Mujahideen, which is 
Jamaat-e-Islami; a number of Deobandi groups, such as Jaish-e-
Mohammed, Hargatho Jihad Islami and so forth, and Lashkar-e-
Taiba, which is Ahl-e-Hadith in its orientation. In addition, 
there are sectarian groups. This is almost exclusively 
Deobandi--who are targeting Shia in Pakistan. They include the 
Besa Bey Pakistan and Lashkar-e-Jhungvi.
    In addition, these groups kill other Sunni Muslims, such as 
Sufis or Barelvis. They also attack Ahmediyyas and non-Muslims. 
Then finally, there is the Tehreek-e-Taliban-e-Pakistan, or the 
Pakistani Taliban. They are also Deobandi. The Pakistan-based 
Deobandi groups, such as Lashkar-e-Jhungvi, are important 
components of this organization. It's important to note that 
they are not the same as the Afghan Taliban, although at the 
level of specific commanders there is some overlap.
    There are a number of refinements to this gross 
aggregation, which I provide in my written statement, and I 
have a table summarizing the same.
    To understand LeT's utility to Pakistan, we need to 
understand how it differs from these other groups. First, all 
of the groups that have split and rebeled under the banner of 
the Pakistan Taliban are Deobandi. These groups are the closest 
to al-Qaeda. Lashkar-e-Taiba is not Deobandi. It has remained 
loyal to the state. It has never attacked Pakistani targets or 
any international entities within the state. It exclusively 
operates outside of Pakistan.
    Finally, whereas the state has taken on some militant 
groups in Pakistan, that is to say part of the Pakistani 
Taliban and al-Qaeda, it has only marginally and cosmetically 
acted against Lashkar-e-Taiba. And I have detailed the various 
ways in which the state continues to support Lashkar-e-Taiba in 
my written statement.
    In contrast to the Lashkar-e-Taiba, these Deobandi groups 
will kill anyone that they deem to be at odds with them and 
their interpretation of Islam. As I explain in my written 
statement, there is a specific theological term for this and 
these individuals are called munafiqin. It sounds technical, 
but it's important.
    Understanding this antimunafiqin violence perpetrated by 
the Deobandi groups is critical to understanding why Pakistan 
will not abandon Lashkar-e-Taiba. Per the group's manifesto, 
which I have analyzed and translated from the Urdu, Lashkar-e-
Taiba is nonsectarian and it is committed to Pakistan's 
integrity. It denounces killing Pakistanis of different 
confessions and it argues that jihadis should focus on the 
external enemies, or kafirs; i.e., us, India, and so forth.
    Lashkar-e-Taiba draws most of its recruits from Deobandis 
and other sectarian groups. This allows them to indoctrinate 
them into this world view, and since it deploys relatively few 
people to Kashmir this is an important part of its domestic 
outreach mission. Plus, Lashkar-e-Taiba will become more 
important to the Pakistani state as its internal security 
continues to degrade at the hands of these Deobandi groups.
    What then are the options for the United States? Containing 
Pakistan is not feasible and attempting to do so isn't 
desirable. Pakistan simply has too many asymmetric retaliatory 
options. The United States instead should work to contain the 
threats of these Pakistani groups, and I lay out a number of 
proposals in my written statement. Mostly they focus on 
Immigration, Treasury, working with the U.N. and other partners 
on intelligence operations, law enforcement, and drawing across 
the different combatant commands where LeT operates, such as 
EUCOM, CENTCOM, and PACOM.
    The goals of this should be to deny these groups freedom of 
operation in the United States and elsewhere. Admittedly, this 
will be difficult to do as long as the United States retains a 
large COIN footprint in Afghanistan. It will be nearly 
impossible to do if the United States pulls out of Pakistan.
    Finally, because the Pakistani and other diaspora 
communities as well as converts to Islam remain an important 
source of financial support to LeT and other groups, as well as 
recruits for international operations, the United States and 
others must forge sensitive policies that consider the diaspora 
as an important source of insecurity while ensuring that 
innocent persons are not singled out without cause.
    Thank you.
    [The prepared statement of Dr. Fair follows:]

                Prepared Statement of C. Christine Fair

                              introduction
    Lashkar-e-Taiba (LeT) is the most lethal terrorist group operating 
in and from South Asia. LeT was founded in 1989 in Afghanistan with 
help from Pakistan's external intelligence agency, the Inter-services 
Intelligence Directorate (ISI). Since 1990 it began operations in 
India. Until Thanksgiving weekend in November 2008, U.S. policymakers 
tended to dismiss LeT as India's problem--hardly that of the United 
States. However, on that weekend, LeT made its debut as an 
international terrorist organization when it launched a multisite siege 
of India's port city of Mumbai that lasted some 4 days. The attack, 
which claimed 166 lives--including several Americans and Israelis--was 
reported without halt on global media. It was the first time LeT had 
targeted non-Indian civilians. However, the group had been attacking 
U.S. troops and its international and Afghan allies in Afghanistan 
since 2004.\1\ Revelations that David Headley Coleman (nee Daood 
Gilani), an American citizen of Pakistani origin, facilitated the 
attack has galvanized renewed fears about American homegrown terrorism 
and the ability of LeT to attack the American homeland.\2\ Headley's 
ties to an al-Qaeda leader, Ilyas Kashmiri, have furthered speculation 
about LeT's ties to al-Qaeda.\3\ Rightly or wrongly, some American 
officials believe it is only a matter of when LeT will strike a 
devastating attack on U.S. soil, rather than if.\4\
    Scholars of South Asian security and media analysts explain 
Pakistan's reliance upon LeT--and a raft of other groups--as a response 
to its enduring rivalry with India over the disputed territory of 
Kashmir specifically and deep neuralgic fears about Indian intentions 
toward Pakistan more generally.\5\ Lacking military, diplomatic, or 
political options to resolve its security competition with India, 
Pakistan has developed a series of proxies that operate in India and 
Afghanistan, with presumably plausible deniability. Pakistan's 
activities and use of militants in Afghanistan stems directly from 
Pakistan's fears about India and a desire to prevent it from developing 
influence and deepening its capabilities of fomenting insurgency along 
the border I Pakistan (e.g., in Balochistan, the Federally Administered 
Tribal Areas, and Khyber Pakhtunkha).
    This widely held explanation for Pakistan's reliance upon LeT among 
other Islamist militants results in policy recommendations that stress 
resolution of the enduring rivalry between India and Pakistan as a 
necessary if insufficient condition for Pakistan to strategically 
abandon its Islamist proxies. Inevitably, calls are made for 
international intervention to encourage both sides to reach some 
accommodation.\6\ Moreover, this has led to specific arguments that 
Afghanistan will be stabilized only when the status of Kashmir is 
resolved as this alone will permit Pakistan to relax its aggressive 
efforts to manage efforts there with Islamist proxies, including the 
Afghan Taliban, the Jalaluddin Haqqani and Gulbuddin Hekmatyar 
networks, LeT among others.\7\
    I argue in this testimony that this conventional understanding of 
Pakistan's reliance upon militancy, framed within the logic Pakistan's 
external security preoccupations, is dangerously incomplete as it 
excludes the domestic politics of militant groups and the support they 
enjoy from the state. I propose that LeT plays an extremely important 
domestic role countering the other militants that are increasingly 
attacking the state and that this domestic role of LeT has increased 
since 2002 as the other groups began attacking the Pakistani state and 
its citizens. Equally important, my argumentation--if valid--suggests 
that the death of Bin Laden will have little or no mitigating impact 
upon LeT or other groups operating in the region. This is true in part 
because, in the view of this analyst, the evidence for LeT's tight ties 
with al-Qaeda is not robust.
    My primary evidentiary bases for these claims are also new: namely, 
a review of LeT's manifesto Hum Kyon Jihad Kar Rahen Hain (Why We Are 
Waging Jihad) as well as a database of some 708 LeT ``martyr'' 
biographies. This database is derived from LeT's extensive book and 
magazine publication and has been compiled in conjunction with West 
Point's Combating Terrorism Center, where the author is overseeing this 
effort while Nadia Shoeb is the lead analyst of these shaheed 
biographies.
    The implications of my argument is that a resolution of the Indo-
Pakistan dispute--howsoever improbable in the first instance--will not 
be sufficient to motivate Pakistan to strategically abandon LeT. 
Moreover, Pakistan's reliance upon LeT will deepen as Pakistan's 
internal security situation further deteriorates. Lamentably, there is 
little that the United States can do to affect this reality and must 
prepare risk mitigation strategies and, perversely, attempt to deepen 
engagement with Pakistan as this is the only way of ensuring maximal 
visibility and exerting maximal influence, even if those opportunities 
are limited.
    The remainder of this testimony is organized as follows. First, I 
provide an overview of the militant landscape in Pakistan, drawing 
particular attention to the way in LeT differs. These differences are 
important to understanding the group, Pakistan's sustained support for 
it and the threat it poses to the region and beyond.\8\ Second, I 
provide a brief history of LeT. Next, I present new evidence for 
understanding the organization from the point of view of domestic 
politics within Pakistan itself. Finally, I conclude this essay with an 
overview of the implications of my arguments for Pakistan's continued 
reliance upon LeT and for U.S. policy.
             disagregrating pakistan's militant market \9\
    There are several kinds of militant groups operating in and from 
Pakistan. Drawing from the vast descriptive literature of Pakistan's 
militant group, the militant milieu can be--and should be--meaningfully 
disaggregated across several dimensions, beginning with their sectarian 
background (e.g., Ahl-e-Hadith, Deoband, Jamaat Islami, etc).\10\ They 
can also be distinguished by their theatres of operation (e.g., 
Afghanistan, India, Pakistan), by the makeup of their cadres (e.g., 
Arab, Central Asia, Pakistani, and ethnic groups thereof), and by their 
objectives (e.g., overthrow of the Pakistan Government, seize Kashmir, 
support the Afghan Taliban, etc.) among other characteristics. 
Employing these characteristics, the following clusters of Islamist 
militant groups can be discerned (summarized in Figure 1):

  <bullet> Al-Qaeda (in Pakistan): Al-Qaeda operatives who are based in 
        Pakistan are largely non-Pakistani. However, they work with and 
        through networks of supportive Pakistani militant groups. The 
        strongest ties are with the Deobandi groups such as the 
        Pakistani Taliban, JM, Lashkar-e-Jhangvi (LeJ), etc. From 
        sanctuaries in the tribal areas and from key Pakistani cities, 
        al-Qaeda has facilitated attacks within Pakistan and has 
        planned international attacks.\11\
  <bullet> Afghan Taliban: While the Afghan Taliban operate in 
        Afghanistan, they enjoy sanctuary in Pakistan's Baluchistan 
        province, parts of the Federally Administered Tribal Areas 
        (FATA), the Khyber Pakhtunkhwa (KPK, formerly known as the 
        Northwest Frontier Province), and key cities in the Pakistani 
        heartland (e.g., Karachi, Peshawar, Quetta). The Afghan Taliban 
        emerged from Deobandi madaris (p. madrassah) in Pakistan and 
        retain their nearly exclusive ethnic Pasthun and Deobandi 
        sectarian orientation.\12\
  <bullet> ``Kashmiri groups'': Several groups proclaim to focus upon 
        Kashmir. These include the Jamaat-e-Islami-based HM and related 
        splinter groups; several Deobandi groups (JM, JUJI, LeJ, etc.); 
        and the Ahl-e-Hadith group LeT, which was renamed Jamaat ud 
        Dawa (JuD) in December 2001. With the notable exception of HM, 
        most of these groups claim few ethnic Kashmiris among their 
        cadres and most came into being as surrogates of Pakistan's 
        intelligence agency, the Inter-services Intelligence Directory 
        (ISO. Ironically, while they are called ``Kashmir groups,'' 
        many of these groups now operate well beyond Kashmir when 
        possible.
  <bullet> ``Sectarian groups'': While in the past, notable anti-Sunni 
        Shia groups existed with support from Iran, sectarian groups 
        today are mostly Sunni who violently target Shia. Those Sunni 
        groups targeting Shia are almost always Deobandi (Sipah-e-
        Sahaba-ePakistan (SSP), Lashkar-e-Jhangvi (LeJ)). In addition, 
        there is considerable intra-Sunni violence with Deobandis 
        targeting Barelvis (a heterodox Sufi order) as well Ahmediyyas, 
        who are considered non-Muslim in Pakistan and elsewhere.\13\
  <bullet> The Tehreek-e-Taliban-e-Pakistan (TTP, Pakistan Taliban). 
        Groups self-nominating as the ``Pakistani Taliban'' appeared in 
        Waziristan as early as 2004 under the leadership of Waziristan-
        based, Deobandi militants who fought with the Afghan Taliban in 
        Afghanistan and earlier in the anti-Soviet jihad. By late 2007, 
        several militant commanders organized under the leadership of 
        South Waziristan-based Baitullah Mehsood under the moniker 
        ``Tehreek-e-Taliban-e-Pakistan.'' Baitullah Mehsood was killed 
        in a U.S. drone strike in August 2009. After considerable 
        speculation about the TTP's fate, it reemerged under the 
        vehemently sectarian Hakirnullah Mehsood. After a brief 
        interlude from violence, the TTP has sustained a bloody 
        campaign of suicide bombings that precipitated Pakistani 
        military activities against their redoubt in South Waziristan. 
        The TTP sustained retaliatory suicide bombings to punish the 
        state for launching that campaign.\14\ While the TTP is widely 
        seen largely as a Pashtun insurgency, the Punjab-based groups 
        like SSP/LeJ and other Deobandi groups are important components 
        of this organization.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    There are a number of refinements to this gross disaggregation. 
First, Deobandi groups have overlapping membership with each other and 
with the Deobandi Islamist political party, Jamiate-Ulema Islami (JUT). 
Thus, a member of JM may also be a member of LeJ or even an 
officeholder at some level with the JUI. Second, Deobandi groups have 
in recent years begun operating against the Pakistani state following 
Pakistan's participation in the U.S.-led global war on terrorism. JM 
and LeJ for instance have collaborated with the TTP by providing 
suicide bombers and logistical support, allowing the TTP to conduct 
attacks throughout Pakistan, far beyond the TTP's territorial 
remit.\15\ Both LeT and several Deobandi militant groups have also been 
operating in Afghanistan against U.S., NATO, and Afghan forces.\16\ In 
contrast, other Kashrniri groups are operating under the influence of 
the Islamist political party Jamaat-e-Islami, such as al-Badr and HM, 
which tend to be comprised of ethnic Kashmiris and have retained their 
operational focus upon Kashmir.
    Pakistan has been a victim of sectarian violence by anti-Shia and 
previously by anti-Sunni militias since the late 1970s. However, the 
current insurgency confronted by Pakistan is different from those older 
internal security threats. As is well-known, then President and General 
Pervez Musharraf joined the U.S.-led global war by supporting Operation 
Enduring Freedom (OEF) \17\ in September of 2001.\18\ In December 2001, 
JM attacked the Indian Parliament. India held Pakistan directly 
responsible for the actions of its proxies and commenced the largest 
military buildup since the 1971 war. After intense diplomatic 
intervention by Washington, war was averted but the military buildup 
remained on both sides of the border until October 2002. Tensions again 
flared when LeT attacked the wives and children of Indian army 
personnel in Kaluchak in May 2002. The United States again intervened 
to prevent war. The compound crisis that spanned December 2001 through 
October 2002 imposed severe costs upon U.S. military operations in 
Afghanistan as Pakistan moved its forces from the west to the east. 
Taliban and al-Qaeda operatives easily fled into Pakistan's tribal 
areas with Pakistani forces redeployed to the east.\19\
    Washington compelled President Musharraf to adopt a ``moderated 
jihad policy'' according to which he agreed to minimize the 
infiltration of Pakistani militants into Pakistan.\20\ Tensions between 
the Pakistani Government and its suite of militant proxies had already 
come into focus when Musharraf abandoned the Taliban (howsoever 
briefly) and cooperated with the United States in the ``Global War on 
Terror." Many militant groups rejected their patron's decision and 
rebelled. In late 2001/early 2002, JM split into a faction that 
remained loyal to the state under its founder Masood Azhar and those 
that actively began a suicide campaign against the state, including 
against President Musharraf, the Karachi Corps Commander and several 
civilian leaders.\21\ Since then, Pakistan's Deobandi groups continue 
to factionalize and target Pakistani military installations and 
personnel, political leadership and civilians alike.
    It is extremely important to note that the groups that split and 
rebelled are all Deobandi. In contrast, LeT remained loyal to the state 
and began reorganizing in December 2001, days prior to the U.S. 
designation of LeT as a Foreign Terrorist Organization. American and 
Pakistani analysts alike believe that the ISI alerted LeT to this 
impending designation. This advance warning allowed LeT to transfer all 
of his financial assets to accounts under the new name of JuD.\22\ 
LeT's leader, Hafiz Saeed, declared there would be two organizations: 
the militant component would be commanded by Maulana Rehman Lakhvi and 
a larger umbrella organization became known as JuD, into which LeT 
transferred most of its personnel. Moreover, LeT's old offices and 
buildings were simply rebadged as JuD facilities. The militant cells of 
the organization uses JuD's facilities for its activities and shares 
phone numbers, personnel, bank accounts, and offices. Thus for all 
practical purposes the organizations are really one: JuD.\23\ With this 
structure, which I will elaborate below, the organization has been able 
to retain its stock of cadres while also expanding its recruitment base 
through its social service provision. Equally important, JuD would be 
able to propagate LeT/JuD's unique doctrine and philosophy described 
below.
    Thus the LeT differs from the other militant groups in several 
important ways. First, the LeT has never targeted the Pakistani state 
or any target (international or otherwise) within Pakistan. It 
exclusively operates outside of Pakistan. This is further evidence of 
the tight linkages between LeT and the Pakistani security 
establishment. Arguably, further evidence yet of LeT's ongoing ties to 
Pakistan's intelligence agency is the simple fact that while several 
LeT cells and operatives have been based in the United States, the 
organization has never conspired to attack the U.S. homeland. This is 
true despite operating against Americans in Afghanistan as well as in 
the 2008 Mumbai attack. The ISI likely understands that this would be a 
serious redline which would provoke unrelenting retaliation. Indeed, 
U.S. legislation such as the ``Pakistan Enduring Assistance and 
Cooperation Enhancement (PEACE) Act of 2009'' (generally known as 
Kerry-Lugar-Berman) specifically focuses upon LeT by name. While the 
U.S. homeland has been vulnerable to LeT attacks, such an attack would 
be unlikely without an explicit nod from the ISI.\24\
    Second, unlike all of the aforementioned groups, the LeT has never 
experienced an exogenous leadership split of any consequence since its 
founding years. The organization has at various times reorganized, as 
described elsewhere in this essay. But this is not the same as 
leadership quarrels that has resulted in disgruntled factions in 
opposition to each other. In fact, the ISI often engineers or foments 
dissent among the other Deobandi and JI-backed militant groups to 
retain some control over them and to limit their ability to develop 
independently of the state. The LeT is the only group that the ISI has 
kept intact without significant cleavages at the apex body of 
decisionsmakers. (As with all organizations, some discord has been 
observed among local commanders.)
    Finally, whereas the state has taken on several of the Deobandi 
groups and
al-Qaeda through inept and not always efficacious military operations, 
it has taken only marginal and cosmetic steps in the wake of the Mumbai 
2008 attacks.\25\ The Pakistan Government has refused to ban JuD. After 
several groups were banned in 2002 (including LeT), all of them 
regrouped under other names with their financial assets largely 
intact.\26\ After the U.S. Ambassador complained that the bans had no 
consequence upon these groups, the Pakistan Government banned the 
reformed groups in 2003. As before, the groups reformed without loss of 
operational capabilities. JuD was the only group that was not banned at 
that time. This enabled JuD to continue to expand its overt as well as 
covert actions with preferential state treatment.\27\ In the wake of 
Mumbai, Pakistan promised to ban JuD after the U.N. Security Council 
proscribed the organization and identified its leadership as terrorist 
in early 2009.\28\ However, Pakistan never honored this commitment. 
While some of its leadership is in jail to appease Washington after 
Mumbai, they continue to meet their associates and plan operations. JuD 
convenes high-profile demonstrations including recent mobilization 
around Pakistan's abrogated sovereignty with the bin Laden raid and 
assignation, the fate of Raymond Davis (the CIA contractor who killed 
two ISI operatives during an altercation) \29\ and to show support for 
Pakistan's blasphemy law and even to demonstrate support for the killer 
of the Punjab Governor, Salmon Tasseer, who wanted to reform the 
blasphemy law. The LeT/JuD continues its domestic social work and 
relief activities increasingly within the eyes of the Pakistani public. 
Frighteningly, JuD--and other Islamist organizations--have taken the 
lead in shaping public opinion about these events which necessarily 
center on loathing of the United States and calls for the government 
and military to sever ties across the board. This is an easy sell to 
Pakistan's increasingly anti-American public.\30\
        lashkar-e-taiba and jamaat ud dawa: a brief history \31\
    The LeT originally emerged as the military wing of the Markaz 
Daawat ul Irshad (MDI), headquartered in Muridke near the Punjabi city 
of Lahore. MDI was founded in 1986 by two Pakistani Engineering 
professors, Hafiz Muhammad Saeed and Zafar Iqbal with the assistance of 
the ISI.\32\ Abdullah Azzam, a close of associate of bin Laden who was 
affiliated with the Islamic University of Islamabad and the Maktab ul 
Khadamat (Bureau of Services for Arab mujahedeen, which was the 
precursor to al-Qaeda), also provided assistance. He was killed in 
Peshawar 2 years after the MDI was founded. MDI, along with numerous 
other militant groups, was involved in supporting the mujahidin in 
Afghanistan from 1986 onward, and established militant training camps 
for this purpose. One camp was known as Muaskar-e-Taiba in Paktia and a 
second known as Muaskar-e-Aqsa in the Kunar province of 
Afghanistan.\33\ (Kunar is known to be home to numerous Ahl-e-Hadith 
adherents in Afghanistan, which overall has few followers in that 
country. For this reason, Kunar has been an attractive safe haven for 
Arabs in Afghanistan.) Pakistan-based analysts note that MDI/LeT's 
training camps were always separate from those of the Taliban, which 
hosted Deobandi militant groups such as HUJI and HuM. This has led some 
analysts to contend that LeT has not had the sustained and organic 
connections to al-Qaeda as enjoyed by the Deobandi groups, many of 
which became ``out sourcers'' for al-Qaeda operations in Pakistan.\34\
    In 1993, MDI divided its activities into two related but separate 
organizations: MDI proper continued the mission of proselytization and 
education while LeT emerged as the militant wing. After the Soviets 
withdrew from Afghanistan, LeT/MDI shifted focus to Indian-administered 
Kashmir. It staged its first commando-style attack in Kashmir in 1990. 
The organization has spawned a vast training infrastructure throughout 
the country to support its dual mission of training militants and 
converting Pakistanis to the Ahl-e-Hadith interpretative tradition. For 
much of the 1990s (with few exceptions), LeT operations were restricted 
to Indian administered Kashmir.
    LeT's 200-acre headquarters is in Muridke (Punjab) located some 30 
kilometers from Lahore.\35\ However, the organization maintains offices 
in most of the major cities throughout Pakistan. (See Figure 2, which 
shows a business card of Yayha Mujahid, LeT's spokesperson, with office 
locations throughout Pakistan.) These offices undertake recruitment as 
well as funds collection. In addition to overt offices open to the 
public, JuD/LeT maintains covert training camps throughout 
Pakistan.\36\ Hafez Saeed is the Amir (supreme commander) of the 
organization.\37\ As noted above, since December 2001, the organization 
essentially exists as JuD within Pakistan while LeT is nominally the 
organization that operates outside of Pakistan although this 
distinction is insignificant. In this essay, I use JuD and LeT 
interchangeably because this was reorganization by the organization 
itself rather than a split.\38\ Operations tend to be conducted with a 
relatively small unit of few than a dozen.\39\

    Figure 2. Business Card of Mr. Yayha Mujahid (c. 2004)

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Source: Mr. Yayha Mujahid gave this card to the author in 2004.

    Recruits typically come from cities in central and southern Punjab 
(e.g., Faisalabad, Gujranwala, Bahawalpur, Vehari, Khaneval, Kasur), 
reflecting the Punjabi nature of the group and the fact that its main 
infrastructure is in the Punjab. In addition, some come from 
Afghanistan and Pashtun areas in Pakistan.\40\ There is no publically 
available--much less accurate--accounting of the organization's end-
strength. But the State Department estimates that it has ``several 
thousand'' members in Pakistan Administered Kashmir, Pakistan, in the 
southern Jammu and Kashmir and Doda regions (in Indian Administered 
Kashmir), and in the Kashmir Valley.\41\ In contrast, the Delhi-based 
South Asia Terrorism Portal estimates that, with some fluctuation, it 
has more than 750 cadres in Jammu and Kashmir, which comprise the 
overwhelming bulk of the foreign militants in the Kashmir valley.\42\
    A perusal of LeT literature demonstrates a commitment to targeting 
Indian Hindus, Jews, and other Kafirs outside of Pakistan.\43\ LeT has 
a hallmark modus operandi, which has often been misconstrued as simply 
``suicide operations.'' In fact, the LeT does not do suicide 
operations, per se, in which the goal of the attacker is to die during 
the execution of the attack. Rather, LeT's ``fidayeen missions are more 
akin to high-risk missions in which well-trained commandos engage in 
fierce combat during which death is preferable to capture. While 
martyrdom is in some sense the ultimate objective of LeT operatives, 
the LeT selects missions where there is a possibility, however slim, of 
living to kill more enemy operatives. The goal of LeT commandos 
therefore is not merely to commit suicide attacks; rather, they seek to 
kill as many as possible until they ultimately succumb to enemy 
operations, barring their ability to survive enemy engagement.\44\
    Consonant with the rigor of a typical LeT mission, LeT recruits do 
not predominantly draw from Pakistan's madaris (pl. of madrassah) as is 
commonly asserted. Rather, LeT recruits are generally in their late 
teens or early twenties and tend to be better educated than Pakistanis 
on average, or even than other militant groups such as the Deobandi SSP 
or JM. A majority of LeT recruits have completed secondary school with 
good grades and some have even attended college. This reflects both the 
background of LeT's founding fathers who were engineering professors 
and MDI commitment to technical and other education. This stands in 
sharp contrast to the madrassah-based networks of many of the Deobandi 
groups including the Afghan Taliban.\45\ The fraction of madrassah-
educated LeT operatives is believed to be as low as 10 percent.\46\ LeT 
also actively targets women both to expand their recruitment base of 
males, and reportedly, to recruit women for militant operations.\47\
    Since the late 1990's, LeT has continued to develop its operational 
reach into India. This has involved recruiting Indian citizens and 
increasingly entails developing an indigenous Indian franchise, the 
Indian Mujahedeen.\48\
    domestic politics of lashkar-e-taib: an alternative explanation
    As noted above, the groups that have reorganized and begun 
targeting the state are all Deobandi. LeT is not Deobandi. This 
theological distinction is exceedingly important if underappreciated. 
First, these Deobandi groups are intimately sectarian. They have long 
supported the targeting of Pakistan's Shia and Ahmediyyas. (Zulfiqar 
Ali Bhutto declared the Ahmediyyas to be non-Muslim in 1974 to placate 
Islamist opposition groups who demanded this.) These Deobandi groups 
also began attacking Sufi shrines in Pakistan in recent years. The most 
recent such attack occurred in April 2011 when suicide bombers 
assaulted a shrine dedicated to a saint, Sakhi Sarvar, in Dera Ghazi 
Khan.\49\ Previously, they attacked extremely important a shrine in 
Lahore, Data Darbar, on July 1, 2010.\50\ These Sufi shrines follow the 
Barelvi school of Islam in Pakistan. Barelvi adherents believe in 
mysticism, revere saints and shrines, and frequent shrines where the 
saint's descendent spiritual guide may intercede on behalf of these 
worshipers. Many, if not most, Pakistanis are believed to be Barelvi 
although there are no data on this question. Pakistanis generally hold 
these shrines in high esteem as these Sufi saints brought Islam to 
South Asia. However, Deobandi loath and denounce these mystical 
practices and beliefs as un-Islamic accretions derived from Hinduism. 
Deobandis also encourage attacks against Pakistan's non-Muslim 
minorities, such as Christians.
    In short, Barelvis, Shia, and Ahmediyyas all espouse religious 
practices that Deobandis find anathema because they practice what 
Deobandis deem munafiqit, or acting to spread disunity. (The term 
munafiqit is sometimes translated as a hypocrite in English, implying 
that they are not truthful to themselves or others.) Perpetrator of 
munafiqit are called munafiq (plural is munafiqin). Deobandi militant 
groups, which include the Pakistan Taliban and its constituent members 
from JM, SSP, and LeJ among others, have come to conclude that anyone 
who does not espouse their beliefs is munafiq. This includes Pakistani 
security personnel as well civilian leadership and individuals who 
oppose these groups and their sanguinary agenda. Under these pretexts, 
Deobandi groups have launched a sustained campaign of violence that 
first began in the Federally Administered Tribal Areas (FATA), and then 
expanded into the settled parts of the frontier in Khyber-Pakhtunkhwa 
and well into the Punjab.
    The results of this Deobandi campaign have been lethal. Using data 
that are available from the Combating Terrorism Center at West Point, 
between January 1, 2004 (when the database begins) and December 31, 
2010 (the last date available), there have been over 3,517 attacks by 
Islamist militant groups the vast majority of which are Deobandi. These 
attacks have claimed more than 25,116 victims among whom 24,796 were 
injured but survived. These attacks expanded precipitously after 2006 
when the Pakistani state began engaging in vigorous antiterrorism 
efforts against these groups. (Yearly breakdowns of incidents and 
victims are available in Figure 3.)

    Figure 3. Islamist Terrorist Attacks and Victims: January 1, 2004-
December 31, 2010

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: Worldwide Incident Tracking System, Combating Terrorism 
Center at West Point. Data accessed April 24, 2011. Like all datasets 
on violence, this too is not a comprehensive database. Thus one should 
not look at any one year, rather the trend over several years. 
Available at https://wits.nctc.gov.

    Understanding this anti-Munafiqin violence perpetrated by these 
Deobandi groups is critical to understanding the domestic utility of 
LeT. (A photo of Pakistan Taliban graffiti denouncing munafiqit in a 
TTP redoubt in South Waziristan is available in Figure 4.)

    Figure 4. Anti-Munafiqat graffiti from the Pakistan Taliban in 
South Waziristan

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Source: Author photograph from a Pakistan Taliban hideout captured 
by the Pakistan army in the Makeen Valley in South Waziristan, July 
2011. This Pashto caption translates as ``Don't indulge in munafiqat 
(hypocrisy) or you will be debased.'' This inscription is believed to 
be written in blood by the Pakistan army, but the author cannot confirm 
this claim.

    In stark contrast, LeT does not fight in Pakistan and does not 
target Pakistanis. In its manifesto ``Hum Kyon Jihad Kar Rahen Hain?'' 
(Why Are We Waging Jihad), the author details why it is that LeT ``Does 
not wage jihad in Pakistan instead of Kashmir'' and other venues in the 
Muslim world where Muslims are oppressed.\51\ This section above all 
other sections explains the domestic importance of the organization. In 
contrast to the Deobandi groups which savage the state and its 
citizens, this LeT manifesto reveals LeT's fundamental non-sectarian 
nature and robust commitment to the integrity of the Pakistani state 
and its diverse polity.
    The manifesto forthrightly addresses this fundamental accusation 
waged against the government by the Deobandis. This critique has 
particular salience in the post-2001 era when the Government of 
Pakistan began collaborating with the United States and the subsequent 
emergent of a domestic insurgency. The author explains LeT's logic by 
arguing that while the state is indeed guilty of these things, 
Pakistanis who are Muslim are all brothers irrespective of the 
sectarian commitments.\52\ The author says that Barelvis, Sufis or Shia 
not be attacked.\53\ Equally important, this document argues against 
the Deobandi position that these persons are Munafiqin worthy of death 
in the first place.
    In contrast, the manifesto's author argues that Kafirs outside of 
Pakistan (Hindus, Jews, Christians, atheists, etc.) are at war with 
Muslims and should be attacked.\54\ The author urges all Muslims to 
fight the Kafirs lest Pakistanis turn on each other, as indeed they 
have in ample measure.
    In this manifesto lie the domestic politics of LeT and its state 
support. It is the only organization that actively challenges the 
Deobandi orthodoxy that has imperiled the domestic security of the 
state. It is the only militant organization that enunciates the 
legitimate targets of jihad and the utility of external jihad to the 
state in a way that the common Pakistani can understand. Thus, LeT's 
doctrine works to secure the integrity of the Pakistani state 
domestically even while it complicates Pakistan's external relations 
with India, the United States and others.
    This orientation is more important than it may seem at first blush. 
Drawing from previous and current work, LeT does not primarily recruit 
from adherents of the theological tradition to which it derives: Ahl-e-
Hadith for two reasons.\55\ First, because many of religious scholars 
(ulema) of Ahl-e-Hadith have rejected violent jihad, LeT has split from 
its sectarian roots. Given its differences of opinion with the Ahl-e-
Hadith ulema, it should not expect many recruits from Ahl-e-Hadith 
adherents.\56\ Another reason is that overall in Pakistan, the Ahl-
eHadith community is quite small, perhaps less than 10 percent of 
Pakistan's population of 180 million.\57\ In fact, LeT overwhelmingly 
recruits Deobandis and Barelvis. In Daur-e-Aam (the basic training) 
recruits are undergo rigorous religious indoctrination. This is an 
important opportunity to attract those who have a taste for violence to 
a pro-state militant organization rather than a Deobandi group which 
may target the state. It also provides LeT the opportunity to dissuade 
Deobandis (or others) who believe in attacking Pakistanis be they 
civilian leaders, security forces or citizens.
    Pakistan's support of LeT/JuD's expansion into providing social 
services after 2002 also makes sense. By 2004 JuD was expanding schools 
(not madrassahs), clinics and other social services throughout 
Pakistan.\58\ In 2004, LeT/JuD raised enormous funds and relief 
supplies for the victims of the 2004/2005 Asian Tsunami, it provided a 
variety of relief and medical assistance in the 2005 Kashmir 
earthquake, and provided social services to internally displaced 
persons who fled military offensive in Swat in 2009 as well as the 
victims of the 2010 monsoon-related super flood. Granted, the 
organization was not at the forefront of relief as the media reported. 
It is likely that Pakistan's media sensationalized LeT's contribution 
deliberately to foster popular support for the organization. This is 
entirely possible as many journalists are explicitly on the ISI's 
payroll and routinely plant stories on behalf of the ISI or 
characterize a story to suit the ISI's interests.\59\
    Pakistan has sustained serious criticism for refusing to crack down 
on the organization and indeed permit it to sustain an extremely public 
profile. (Evidence of the organization's intent to inflame the United 
States and other international observers is manifested in its various 
banners in (often broken) English. Few Pakistanis can read English and 
thus is likely intended to ensure that American and others can see 
understand their claims.) However, when one appreciates the domestic 
importance of LeT in dampening internal insecurity, the state has an 
enormous incentive to encourage and facilitate this expansion of JuD 
throughout Pakistan. By bolstering the organization's domestic 
legitimacy, JuD becomes an ever-more effective organization in 
countering the competitive dangerous beliefs of the Deobandi groups. 
Pakistan's support of the organization has taken unusual turns. After 
the Mumbai attack of 2008, the Punjab provincial government began 
managing the organization's substantial assets in the Punjab and has 
even placed many LeT/JuD workers employed in various purported 
charitable activities on its official payroll. In addition, the Punjab 
government has even made substantial grants to the organization.\60\
    When we appreciate the important domestic role that LeT/JuD plays 
in helping to counter the Deobandi violence that has ravaged Pakistan, 
it logically follows that this organization will become more important 
as Pakistan's domestic security situation degrades. This suggests that 
no matter what happens vis-a-vis India, Pakistan is unlikely to put 
down this organization as long as it serves this important domestic 
political role.
                   implications for the united states
Implications of this evidence for LeT: It 's not going away
    The implications of my argument and new evidence are important and 
suggest strongly that international intervention to resolve Pakistan's 
outstanding dispute with India is unlikely to be a sufficient condition 
for Pakistan to abandon its reliance upon LeT/JuD. This is true despite 
the increasing threat the organization poses to international security 
and despite the fact that Pakistan will be held accountable for attacks 
perpetrated by the group. This is true despite the fact that an LeT/JuD 
attack in India may be one of the quickest route to an outright 
conflict with India. Needless to say an attack by the LeT/JuD on 
American soil would be a catastrophic game changer. While Pakistan's 
reliance upon LeT may be a risky proposition, JuD/LeT appears to have 
an enormous role in securing Pakistan's interests externally. Equally 
and perhaps more importantly, LeT secures a more primal state interest: 
internal cohesion and survivability of the state.
Can Pakistan Abandon Militancy as a Strategic Tool? Not Likely
    Similarly, prospects are slim that Pakistan will be able to reverse 
course with its proxies who have turned against the state with 
devastating violence. This is in part because part of the Pakistan 
Taliban have important overlaps with groups which Pakistan still 
considers to be assets: namely, groups like JM who retain an interest 
in targeting India rather than Pakistan. Moreover, as the army's 
various attempted peace deals demonstrate, there remains a latent hope 
that these groups can be rehabilitated and realign with Pakistan's 
foreign interests. Pakistan's likely inability to counter the domestic 
threat comprehensively is also due in part due to Pakistan's 
shortcomings in countering those groups and individual commanders that 
they have taken on as enemies of the state. These shortcomings are 
evidenced in the armed forces, intelligence agencies, police and other 
law enforcement entities, Pakistan's legal statutes, and other entities 
within Pakistan's rule of law system such as the judiciary.
    It is important to understand that no state will act against its 
own self interests. Given that Pakistan is unlikely to be induced to 
abandon its reliance upon militancy under its nuclear umbrella for both 
external and internal reasons, the international community--including 
the United States--should abandon its Panglossian optimism that 
additional foreign assistance or security assistance will shift 
Pakistan's strategic calculus away from using LeT or other militants to 
service its internal and external goals. For Pakistan, LeT is an 
existential asset in the same way that it is an existential enemy for 
countries like India and even the United States. This suggests an 
urgent need to conceptualize and implement a robust threat containment 
strategy.
Mitigating the Threats? Limited But Important to Keep Trying
    Containing Pakistan per se is not feasible nor is attempting to do 
so even desirable. Pakistan simply has many asymmetric options which 
the United States should consider heavily. Any serious consideration of 
options to contain Pakistan must be gamed, regamed and multiple levels 
of contingency plans must be formulated. This is an option that is 
fraught with danger and should be considered only as a last resort.
    However, there are means of containing the threats that Pakistan 
pose even if containing the country is impossible. The United States, 
India, the United Kingdom and other states victimized by LeT and 
similar groups should forge closer cooperation on intelligence and 
counterterrorism initiatives to interdict planned attacks and to 
identify and prosecute individuals after the fact. Such prosecutions 
will likely present evidence that will incriminate others who remain 
active in the organization, contributing to further efforts to 
downgrade their efficacy.\61\ Greater contacts must be forged with 
Immigration, Treasury, and other government agencies in those states in 
North America, Europe, the Middle East, South and South East Asia that 
LeT/JuD uses for logistical purposes, movement of recruits into and out 
of Pakistan, transfers of funds, and other materials to sustain 
operations. The goal of these engagements is to deny Pakistani militant 
groups freedom of movement of all assets and disrupting potential cells 
and plots.
    Because the Pakistani diaspora communities and converts to Islam 
remain important sources of financial support to LeT/JuD and recruits 
for operations,\62\ the United States and other governments will have 
to forge sensitive policies that consider the diaspora as an important 
source of insecurity while ensuring that innocent persons are not 
singled out without cause. This has been and will remain a delicate and 
fraught public policy issue.\63\ How can governments forthrightly 
concede these threats without alienating Muslims at home, who are 
important sources of information that have helped deter potential 
attacks and catch those who have successfully executed attacks? 
However, Pakistan's refusal to shut down militant training camps in 
Pakistan leave few options to states seeking to protect their citizenry 
and their allies from attacks by Pakistan-based groups or by 
individuals who have trained with such groups in Pakistan.
    National and multilateral institutions (e.g., the U.S. Department 
of Treasury, the United Nations Security Council, the European Union) 
should work to target specific individuals within the militant 
organizations in question, as well as individuals within the Pakistani 
state found to be supporting these groups. Admittedly, the latter may 
be awkward. In the case of the U.N. Security Council (UNSC), this may 
mean working to forge coalitions with Pakistan's key supporter on the 
UNSC: China. More generally, the United States will have to reach out 
to Pakistan's friends--as well as foes--to forge a consensus on the 
best way to help Pakistan help itself. Indeed Washington will need to 
develop broad-based engagement strategy of all countries relevant to 
Pakistan (e.g., Iran, Saudi Arabia, UAE, China) to help forge a 
parallel if not convergent threat perception of Pakistan and develop 
policies to best address them.
    Finally, while I understand that the United States is facing a 
severe budgetary crisis and while I understand that there is a long-
simmering interest in ``cutting off'' Pakistan, these urges must be 
tempered. While it is true that financial and military assistance is 
not ever going to be adequate to alter Pakistan's threat perceptions 
and that Pakistan's military and intelligence agencies will seek to 
circumscribe U.S. engagement, the United States should make every 
effort to intensify and expand engagement after the demise of bin 
Laden. U.S. interests endure well beyond his death whether securing 
resupply of U.S. and allied troops in Afghanistan, securing maximal 
visibility into and influence in Pakistan's oversight of its nuclear 
weapons, and of course the myriad militant groups operating in and from 
Pakistan.
Impact of bin Laden's Death on Pakistan's Militant Landscape: Likely 
        Little or None
    Bin Laden's death does not dampen the domestic or external utility 
of LeT. His death will not temper the vicious violence of the Pakistan 
Taliban and their relentless attacks upon the Pakistan state. It may 
even encourage ever-more sophisticated violence from the TTP, which has 
ties to al-Qaeda and the Haqqani network. (Haqqani has long been close 
to bin Laden.) And of course bin Laden's death does not affect enduring 
and long-term U.S. concerns about nuclear proliferation, security of 
peace-time positioning of Pakistan's nuclear weapons, mobilization 
during a crisis with India, command and control arrangement, much less 
the steepness of the escalation latter of an actual crisis with India 
among other salient concerns.
Staying the Course and Seeking New Opportunities
    Despite all impulses to the contrary, the United States needs to 
stay the course and continue to invest in civilian institutions. The 
United States must make every effort--where possible--to invest in 
civilian-led security governance, provide technical and other support 
to empower Pakistan's Parliament to incrementally increase its ability 
to exert oversight of Pakistan's defense and intelligence agencies. 
While a genuinely civilian-led Pakistan seems an impossible dream, any 
progress--howsoever slim--will be important. Finding ways of providing 
meaningful support to Pakistan's law enforcement agencies and judicial 
system remains a critical set of activities. Admittedly, access will be 
tough through the U.S. mission. Provincial assemblies also need 
technical skill training and other professional development. Perhaps 
U.N.D.P. (United Nations Development Program) is the best route for 
such activities such as strengthening Pakistan's judicial system and 
national and provincial assembly.
    Devolution may present new opportunities for engagement as each 
province may have specific needs and depending upon the program may be 
more receptive. Provincial planning councils and ministries offer new 
opportunities even if negotiating what devolution means will remain a 
medium-term challenge.
    Needless to say, the ways in which the United States does aid 
programming is and has been deeply problematic for institutional and 
other reasons. USAID does not require Pakistani matching grants. Thus 
any allocation from USAID for development displaces the same amount in 
Pakistan's budget. This allows Pakistan to be insouciant about the 
program as the appropriate organization has no incentive to care: 
Pakistan's money is not on the line. While a detailed exposition of 
this concept is beyond the scope of this testimony; USAID's chronic 
inability to deliver value needs to be reevaluated. In fact, perhaps 
the bin Laden event and the emerging rift with Pakistan may occasion an 
opportunity to reoptimize Kerry-Lugar-Berman. Such a concept of aid 
will allow Washington to do more with less and will avoid the costly 
and unproductive expenditures on programs for which there is no 
financial or organizational buy-in.
    Finally, while it seems dismaying that the U.S. investment in 
Pakistan has not yielded hoped for security payoffs, this pessimism is 
not entirely justifiable. Had it not been for the investments thus far, 
the United States would not have been in the position to have the 
assets required to identify and neutralize bin Laden as well as a host 
of other al-Qaeda operatives. And, as Secretary of Defense Robert Gates 
has recently claimed, he has seen evidence that high-level Pakistani 
officials did not know about bin Laden's whereabouts. The lamentable 
truth is that even if they had, the United States would make a 
catastrophic error in judgment in walking away as it will forfeit any 
opportunities to develop needed information on key concerns and it will 
forgo any opportunity--even if limited--in helping to power civilian 
institutions in Pakistan.
    All of these options seem inordinately difficult given the 
political priorities of the United States and other critical countries; 
however, other more feasible options simply do not appear to be 
available.

----------------
References

    \1\ Author experience in Afghanistan between June and October 2007 
as a political officer to the United Nations Assistance Mission to 
Afghanistan.
    \2\ U.S. Department of Justice, ``Chicago Resident David Coleman 
Headley Pleads Guilty To Role In India and Denmark Terrorism 
Conspiracies,'' March 18, 2001, available at (http://www.justice.gov/
usao/iln/pri/chicago/2010/prO318_01.pdf).
    \3\ Carrie Johnson, ``U.S. Citizen David Coleman Headley Admits 
Role in Mumbai Attacks,'' Washington Post, March 19, 2010. (http://
www.washingtonpost.com/wp-dyn/content/article/2010/03/18/
AR2010031805407.html)
    \4\ See discussion in Bruce Riedel, Deadly Embrace: Pakistan, 
America, and the Future of Global Jihad (Washington DC: Brookings 
Institution, 2011), pp. 106-118.
    \5\ T.V. Paul, ``Causes of the India-Pakistan Enduring Rivalry,'' 
in T.V. Paul Ed. ``The India-Pakistan Conflict'' (Cambridge: Cambridge 
University Press, 2005), pp. 3-24.
    \6\ See discussion between Paul Kapur and Sumit Ganguly in S. Paul 
Kapur, ``Ten Years of Instability in a Nuclear South Asia,'' 
International Security 33, no. 2 (Fall 2008): 71-94 and Sumit Ganguly, 
``Nuclear Stability in South Asia,'' International Security 33, no. 2 
(Fall 2008): 45-70. For a critical discussion of the security of 
nuclear weapons and command and control arrangements over the same, see 
Christopher Clary, ``Thinking About Pakistan's Nuclear Security in 
Peacetime, Crisis and War,'' IDSA Occasional Paper No. 12 (New Delhi: 
IDSA, 2010); Sumit Ganguly, S. Paul Kapur, ``India, Pakistan, and the 
Bomb: Debating Nuclear Stability in South Asia'' (New York: Columbia 
University Press, 2010).
    \7\ Barnett R. Rubin and Ahmed Rashid, ``From Great Game to Grand 
Bargain,'' Foreign Affairs, November/December, 2008. Available (http://
www.foreignaffairs.com/articles/64604/barnett-r-rubin-and-ahmed-rashid/
from-great-game-to-grand-bargain).
    \8\ For an extensive review, see C. Christine Fair, ``The Militant 
Challenge in Pakistan,'' Asia Policy 11 (January 2011): 105-37.
    \9\ C. Christine Fair, ``The Militant Challenge in Pakistan,'' Asia 
Policy 11 (January 2011): 105-37.
    \10\ This taxonomy is deduced from author fieldwork in Pakistan 
from 2002 to 2011. See C. Christine Fair, ``Who Are Pakistan's 
Militants and Their Families?'' Terrorism and Political Violence 20 
(2008): 49-65. See also, inter alia, Arif Jamal, ``Shadow War: The 
Untold Story of Jihad in Kashmir'' (Hoboken: Melville House, 2009); 
Muhammad Amir Ranan (trans. Saba Ansari) ``The A to Z of Jehadi 
Organizations in Pakistan'' (Lahore: Mashal, 2004); See Amir Mir, ``The 
True Face of Jehadis'' (Lahore: Mashal Books, 2004), Amir Mir, ``The 
Fluttering Flag of Jehad'' (Lahore: Mashal Books, 2008). For an 
excellent synthesis of the sprawling Pakistani literature on the varied 
militant groups based in and from the country, see Nicholas Howenstein, 
``The Jihadi Terrain in Pakistan: An Introduction to the Sunni Jihadi 
Groups in Pakistan and Kashmir,'' Pakistan Studies Research Unit, 
Bradford University, February 2008. http://
www.humansecuritygateway.info/documents/
PSRU_JihadiTerrain_Pakistan.pdf; Jane's World Insurgency and Terrorism, 
``Tehrik-e-Taliban Pakistan (TTP),'' July 1, 2009. wjit.james.com (by 
subscription only); Manzair Zaidi, ``Pakistan's Taliban Warlord: A 
Profile of Baitullah Meshud,'' The Long War Journal, September 30, 
2008. www.longwarjournal.org/archives/2008/9/pakistans_taliban_wa.php; 
Jane's Terrorism and Security Monitor, ``Pakistan's Most wanted: 
Baitullah Mehsud,'' February 8. 2009. www4.janes.com (available to 
subscribers only); Rahimullah Yusefzai, ``Profile: Nek Mohammed,'' BBC 
News Online, June 18, 2004. news.bbc.co.uk/2/hi/south_asia/3819871; 
Hassan Abbas, ``A Profile of Tehrik-i-Taliban Pakistan,'' CTC Sentinel 
1 (2008): 1_4; Jane's Terrorism and Insurgency, ``Tribal Tribulations: 
The Pakistani Taliban in Waziristan,'' January 13, 2009. www.janes.com 
(available to subscribers only).
    \11\ See comments made by National Intelligence Director John 
Negroponte cited in ``Al-Qaeda `rebuilding' in Pakistan,'' BBC News 
Online, January 12, 2007. http://news.bbc.co.uk/2/hi/south_asia/
6254375.stm; K. Alan Kronstadt, U.S.-Pakistan Relations (Washington DC: 
Congressional Research Service, 2008). http://fpc.state.gov/documents/
organization/115888.pdf.
    \12\ See, inter alia, Senator Carl Levin, ``Opening Statement of 
Senator Carl Levin, Senate Armed Services Committee Hearing on 
Afghanistan and Pakistan,'' February 26, 2009. http://levin.senate.gov/
newsroom/release.cfm?id=308740; Ian Katz, ``Gates Says Militant 
Sanctuaries Pose Biggest Afghanistan Threat,'' Bloomberg News, March 1, 
2009. http://www.bloomberg.com/apps/
news?pid=20601087&sid=aehmlRXgKi2o&refer=home; Barnett R. Rubin. 
``Saving Afghanistan,'' Foreign Affairs, January/February 2007. http://
www.foreignaffairs.org/20070101faessay
86105-p0/barnett-r-rubin/saving-afghanistan.html.
    \13\ Vali R. Nasr, ``International Politics, Domestic Imperatives, 
and Identity Mobilization: Sectarianism in Pakistan, 1979-1998,'' 
Comparative Politics 32 (2000): 170-91; International Crisis Group. 
``The State of Sectarianism in Pakistan: Crisis Group Asia Report No. 
95'' (Brussels, Islamabad; International Crisis Group, 2005), 12, 19-
20. Also see A.H. Sorbo, ``Paradise Lost,'' The Herald, June 1988, p. 
31; Muhammad Qasim Zaman, ``Sectarianism in Pakistan: The 
Radicalization of Shi'i and Sunni Identities,'' Modern Asian Studies 32 
(1998):689-716.
    \14\ Declan Walsh, ``Pakistan Sends 30,000 Troops for All-Out 
Assault on Taliban,'' The Guardian, October 17, 2009. http://
www.guardian.co.uk/world/2009/oct/17/pakistan-sends-troops-against-
taliban.
    \15\ Author fieldwork in Pakistan in February and April 2009.
    \16\ See C. Christine Fair, ``Antecedents and Implications of the 
November 2008 Lashkar-e-Taiba Attack Upon Mumbai,'' testimony presented 
before the House Homeland Security Committee, Subcommittee on 
Transportation Security and Infrastructure Protection on March 11, 
2009.
    \17\ OEF was the military operation that commenced on October 7, 
2001, in response to the 9/11 attacks. Pakistan provided.
    \18\ C. Christine Fair, ``The Counterterror Coalitions: Cooperation 
with Pakistan and India'' (Santa Monica: RAND, 2004).
    \19\ Imtiaz Gul, ``The Al Qaeda Connection: The Taliban and Terror 
in Pakistan's Tribal Areas'' (London: Penguin, 2009).
    \20\ C. Christine Fair and Peter Chalk. ``Fortifying Pakistan: The 
Role of U.S. Internal Security Assistance'' (Washington DC: USIP, 
2006).
    \21\ Mir, ``The True Face of Jehadis''; Mir, ``The Fluttering Flag 
of Jehad''; Howenstein, ``The Jihadi Terrain in Pakistan.''
    \22\ See ``U.S. Embassy Cables: Lashkar-e-Taiba Terrorists Raise 
Funds in Saudi Arabia,'' guardian.co.uk, December 5, 2010, available at 
http://www.guardian.co.uk/world/us-embassy-cables-documents/220186.
    \23\ See ``U.S. Embassy Cables: Lashkar-e-Taiba Terrorists Raise 
Funds in Saudi Arabia,'' guardian.co.uk, December 5, 2010, available at 
http://www.guardian.co.uk/world/us-embassy-cables-documents/220186.
    \24\ Recent evidence provided by David Coleman Headley during his 
trial for his participa-
tion in the Mumbai attacks of 2008, he claimed direct ISI involvement 
in his management.
These are allegations made in court and may not be true. Sebastian 
Rotella, ``U.S. Prose-
cutors Indict 4 Pakistanis in Mumbai attacks,'' The Washington Post, 
April 26, 2011. Avail-
able at http://www.washingtonpost.com/politics/
us_prosecutors_indict_4_pakistanis_in_
mumbai_attacks/2011/04/26/AFaDLhsE_story.html?wprss=rss_homepage. 
Moreover, the Director General of the ISI, Lt. Gen. Ahmad Shuja Pasha, 
conceded some that ``rogue'' elements of his organization were likely 
involved. However, he denied that this operation was ``authorized.'' 
Bob Woodward. ``Obama's Wars'' (New York: Simon and Shuster, 2010), pp. 
46-47.
    \25\ C. Christine Fair and Seth Jones, ``Pakistan's War Within,'' 
Survival, 51, No. 6 (December 2009-January 2010): 161-188.
    \26\ Stephen Phillip Cohen, ``The Jihadist Threat to Pakistan,'' 
The Washington Quarterly 26 (2003): 7-25.
    \27\ Stephen Tankel, ``Lashkar-e-Taiba: From 9/11 to Mumbai.'' 
Developments in Radicalisation and Political Violence, April/May 2009. 
www.icsr.info.
    \28\ Jay Solomon, ``U.N. Security Council Sanctions Lashkar 
Members,'' December 10, 2008. http://online.wsj.com/article/
SB122895332614496341.html.
    \29\ C. Christine Fair, ``Spy for a Spy: the CIA-ISI Showdown Over 
Raymond Davis,'' Af-Pak Channel, March 10, 2011, ForeignPolicy.com.
    \30\ The Pew Foundation, ``Opinion of the United States,'' 2010, 
available at http://pewglobal.org/database/?indicator=l&country=166.
    \31\ This section draws in part from C. Christine Fair, 
``Antecedents and Implications of the November 2008 Lashkar-e-Taiba 
Attack Upon Mumbai,'' testimony presented before the House Homeland 
Security Committee, Subcommittee on Transportation Security and 
Infrastructure Protection on March 11, 2009.
    \32\ See Sikand, ``The Islamist Militancy in Kashmir: The Case of 
the Lashkar-e-Taiba''; Abou Zahab, ``I Shall be Waiting at the Door of 
Paradise''; Shafqat, ``From Official Islam to Islamism.''7.
    \33\ See Yoginder Sikand, ``The Islamist Militancy in Kashmir: The 
Case of the Lashkar-e-Taiba,'' in The Practice of War: Production, 
Reproduction and Communication of Armed Violence, eds. Aparna Rao et 
al. (New York: Berghahn Books, 2007):215-238; Mariam Abou Zahab, ``I 
Shall be Waiting at the Door of Paradise: The Pakistani Martyrs of the 
Lashkar-e-Taiba'' (Army of the Pure), The Practice of War: Production, 
Reproduction and Communication of Armed Violence, eds. Aparna Rao et 
al. (New York: Berghahn Books, 2007):133-158; Saeed Shafqat, ``From 
Official Islam to Islamism: The Rise of Dawat-ul-Irshad and Lashkar-e-
Taiba,'' in Pakistan: Nationalism without a Nation, ed. Christophe 
Jaffrelot (London: Zed Books, 2002), pp. 131-147.
    \34\ In 1998, the United States bombed several al-Qaeda/Taliban 
training camps in retaliation for the al-Qaeda attacks on U.S. 
embassies in Africa. Militants of several Pakistani Deobandi groups 
were killed including operatives of HUJI and HuM among others. See 
Barry Bearak, ``After The Attacks: In Pakistan; Estimates Of Toll In 
Afghan Missile Strike Reach As High As 50,'' The New York Times, August 
23, 1998. Also see Dexter Filkins, `` `All of Us Were Innocent,' Says 
Survivor of U.S. Attack on Camp,'' The Los Angeles Times, August 24, 
1998. http://articles.latimes.com/1998/aug/24/news/mn-16045.
    \35\ According to the South Asia Terrorism Portal, the Muridke 
Markaz (center) is comprised of a ``Madrassa (seminary), a hospital, a 
market, a large residential area for `scholars' and faculty members, a 
fish farm and agricultural tracts. The LeT also reportedly operates 16 
Islamic institutions, 135 secondary schools, an ambulance service, 
mobile clinics, blood banks and several seminaries across Pakistan.'' 
See South Asia Terrorism Portal, ``Lashkar-e-Toiba `Army of the Pure,' 
'' no date, available at http://www.satp.org/satporgtp/countries/india/
states/jandk/terrorist_outfits/lashkar_e_toiba.htm (last accessed July 
25, 2009).
    \36\ The author has visited the Lahore office in Char Burji.
    \37\ South Asia Terrorism Portal, ``Lashkar-e-Toiba [sic]Army of 
the Pure.''
    \38\ For more detailed information about LeT/JuD leadership, see 
South Asia Terrorism Portal, ``Lashkar-e-Toiba `Army of the Pure.' '' 
This source suggests the following structure: ``the LeT leadership 
consisted of: Hafiz Mohammed Saeed (Supreme Commander); Zia-Ur-Rehman 
Lakhvi alias Chachaji (Supreme Commander, Kashmir); A. B. Rahman-Ur-
Dakhil (Deputy Supreme Commander); Abdullah Shehzad alias Abu Anas 
alias Shamas (Chief Operations Commander, Valley); Abdul Hassan alias 
MY (Central Division Commander); Kari Saif-Ul-Rahman (North Division 
Commander); Kari Saif-Ul-Islam (Deputy Commander); Masood alias Mahmood 
(Area Commander, Sopore); Hyder-e-Krar alias CI (Deputy Commander, 
Bandipora); Usman Bhai alias Saif-Ul-Islam (Deputy Commander, Lolab); 
Abdul Nawaz (Deputy Commander, Sogam); Abu Rafi (Deputy Divisional 
Commander, Baramulla); Abdul Nawaz (Deputy Commander, Handwara); Abu 
Museb alias Saifulla (Deputy Commander, Budgam).''
    \39\ For more information about this see, Muhammad Amir Ranan 
(trans. Saba Ansari) ``The A to Z of Jehadi Organizations in Pakistan'' 
(Lahore: Mashal, 2004).
    \40\ The author, working with Nadia Shoeb, Arif Jamal and the 
Combating Terrorism Center, is working on a database of LeT ``shaheed'' 
biographies obtain from their publications. These observations are 
preliminary and derived from a database of 708 biographies of 
``martyrs.'' Data extraction and analysis was done by Nadia Shoeb.
    \41\ See U.S. Department of State, Office of the Coordinator for 
Counterterrorism, ``Chapter 6--Terrorist Organizations,'' in Country 
Reports on Terrorism 2007, April 30, 2008. http://www.state.gov/s/ct/
r1s/crt/2007/103714.htm. Note that many other details in the State 
Department write up do not accord with knowledgeable sources on the 
organization. For example, it claims that most of the recruits come 
from madrassahs, which is not confirmed by analysts with deep 
familiarity of the organization who are cited throughout this article.
    \42\ South Asia Terrorism Portal, ``Lashkar-e-Toiba `Army of the 
Pure'.''
    \43\ Jamaat-ud-Dawa, Hum Kyon Jihad Kar Rahen Hain (Why We are 
Waging Jihad) (Lahore: Dar-ul-Andulus, 2004).
    \44\ Abou Zahab, ``I Shall be Waiting,'' p. 138, Nadia Shoeb's 
analysis of the LeT database at CTC.
    \45\ C. Christine Fair, ``The Madrassah Challenge: Militancy and 
Religious Education in Pakistan'' (Washington, DC: USIP, 2008).
    \46\ Zahab, ``I Shall be Waiting,'' p. 140, Shafqat, ``From 
Official Islam to Islamism,'' p. 142; Nadia Shoeb's analysis of the LeT 
database at CTC.
    \47\ Farhat Hag, ``Militarism and Motherhood: The Women of the 
Lashkar-i-Tayyabia in Pakistan,'' Signs 32 (2007): 1023-1046.
    \48\ C. Christine Fair, ``Students Islamic Movement of India and 
the Indian Mujahideen: An Assessment,'' Asia Policy 9 (January 2010): 
101-119.
    \49\ See Salman Masood and Waqar Gillani, ``Blast at Pakistan 
Shrine Kills Dozens,'' The New York Times, April 3, 2011. Available at 
http://www.nytimes.com/2011/04/04/world/asia/
04pakistan.html?partner=rss&emc=rss.
    \50\ ``Deadly Blasts Hit Sufi Shrine in Lahore,'' BBC.Com, 2 July, 
2011. Available at http://www.bbc.co.uk/news/10483453.
    \51\ Hum Kyon Jihad Kar Rahen Hain, p. 42-45. Author's translation 
from the Urdu text.
    \52\ Hum Kyon Jihad Kar Rahen Hain, p. 42. Author's translation 
from the Urdu text.
    \53\ Hum Kyon Jihad Kar Rahen Hain, p. 43. Author's translation 
from the Urdu text.
    \54\ Hum Kyon Jihad Kar Rahen Hain, p. 6. Author's translation from 
the Urdu text.
    \55\ Nadia Shoeb analysis of 708 martyr biographies, unpublished. 
C. Christine Fair, ``Militant Recruitment in Pakistan: Implications for 
Al-Qa'ida and Other Organizations,'' Studies in Conflict and Terrorism 
27, No. 6 (November/December 2004): pp. 489-504. C. Christine Fair, 
``The Educated Militants of Pakistan: Implications for Pakistan's 
Domestic Security,'' Contemporary South Asia 16, No. 1 (March 2008), 
pp. 93-106.
    \56\ Amir Rana, ``The A to Z of Jehadi Organizations in Pakistan,'' 
pp. 296-301.
    \57\ There are no reliable estimates for this. The census does not 
inquire of such things. Some surveys have included questions about 
confessional beliefs, but respondents may not answer such sensitive 
questions truthfully. C. Christine Fair, Neil Malhotra and Jacob N. 
Shapiro, drawing from a nationally representative survey of 6,000 
Pakistanis, report that 8 percent of the respondents said that they 
were Ahl-e-Hadith. Christine Fair, Neil Malhotra and Jacob N. Shapiro, 
``Islam, Militancy, and Politics in Pakistan: Insights From a National 
Sample,'' Terrorism and Political Violence 22, No. 4 (September 2010): 
pp. 495-521.
    \58\ See ``Pakistani Group Under Fire After India Attacks,'' 
Associated Press, December 5, 20008. Available at http://
www.cbsnews.com/stories/2008/12/05/ap/world/main4649577.shtml.
    \59\ Tahir Andrabi and Jishnu Das, ``In Aid We Trust: Hearts and 
Minds and the Pakistan Earthquake of 2005,'' World Bank Policy Research 
Working Paper No. 5440, October 2010. Available at http://
papers.ssrn.com/sol3/papers.cfm?abstract_id=1688196; C. Christine Fair, 
``Not at the Forefront of Flood Relief,'' ForeignPolicy.com, September 
20, 2010.
    \60\ ``Punjab Govt. Gave Rs 82m to JD: Papers,'' The Dawn, June 16, 
2010, available at http://news.dawn.com/wps/wcm/connect/dawn-content-
library/dawn/the-newspaper/front-page/punjab-govt-gavers82m-to-jd-
papers660; ``Punjab Govt. Appoints Administrator for JuD,'' GeoTv, 
January 25 2009, available at http://www.geo.tv/1-25-2009/33491.htm.
    \61\ This has been the case with the prosecution of LeT operative 
from Chicago, David Coleman Headley. See Rotella, ``U.S. Prosecutors 
Indict 4 Pakistanis in Mumbai Attacks.''
    \62\ Abou Zahab, ``I Shall be Waiting at the Door of Paradise.'' p. 
135.
    \63\ The March 2011 U.S. congressional hearing on this topic 
generated a storm of controversy from both liberals and conservatives 
alike. See David A. Fahrenthold and Michelle Boorstein, ``Rep. Peter 
King's Muslim hearing: Plenty of drama, less substance,'' The 
Washington Post, March 11, 2011. Available at http://
www.washingtonpost.com/wp-dyn/content/article/2011/03/10/
AR2011031002045.html.

    The Chairman. Thank you very much, Dr. Fair. I have to tell 
you, I read your testimony and my head is spinning.
    Dr. Fair. Sorry about that.
    The Chairman. No. It's really fascinating, and it's 
incredibly important to understand what our options are. And I 
was particularly struck by your conclusion, that: ``The 
implications of my argument is that a resolution of the Indo-
Pakistan dispute, however improbable in the first instance, 
will not be sufficient to motivate Pakistan to strategically 
abandon LeT.''
    Where does that leave us? I mean, my instinct as I listened 
to your explanation was: of these groups let's not get in the 
middle of that, there's not a lot we can do about it.
    So are we chasing ghosts in this negotiating process, or 
are there individuals with enough command and control over 
these various groups with whom we could negotiate a political 
settlement that would allow American forces to begin to 
withdraw from Afghanistan?
    Can each of you tackle that question? And I'd like your 
reactions to Dr. Fair's description of the multiplicity of the 
different beliefs and components of these groups. Can they be 
brought together by a common interest or are we--and the 
Pakistanis--just going to have to struggle with this to resolve 
it?
    Mr. Bergen. Senator Kerry, if we'd had this conversation 4 
years ago, there are some things that have happened in Pakistan 
that would have been pretty unpredictable. I mean, a major 
operation in southern Waziristan in 2009 going after the 
Taliban, involving 30,000 men, several months of air 
operations, a really serious military operation; also a serious 
military operation in Swat. They weren't done to American 
counterinsurgency standards, but they were done.
    So the point is the Pakistani state is willing to do 
certain things and, as Chris pointed out, they're particularly 
willing to do things against organizations that are damaging 
them.
    I think it's going to be very, very, very difficult for the 
Pakistanis to abandon the Haqqani Network, although perhaps not 
impossible. At the end of the day----
    The Chairman. Is it possible for them to reach some kind of 
understanding with the Haqqani Network if they bring them into 
the reconciliation process?
    Mr. Bergen. To me that would be a very rational thing for 
them to do at the end of the day, and they are capable of doing 
that. And that would be an enormous way forward because, while 
Dr. Pillar is correct that the Afghan Taliban doesn't have much 
of a relationship with al-Qaeda in the sense that Mullah Omar 
Taliban, as you know, al-Qaeda is being protected by the 
Haqqani Network. So the biggest key to moving forward is 
getting the Haqqani Network to basically change sides, and I 
don't think that's out of the question.
    But if I'm General Kayani, my main concern remains India, 
and as long as he sees India--Afghanistan as a source of Indian 
strength, he may not want to take the Haqqani card off the 
table.
    It's not a very good answer to the question, but that's my 
answer.
    The Chairman. Dr. Pillar, would you respond also?
    Dr. Pillar. Pakistan's basic interests as they see them are 
fairly constant. But the strategy and tactics--and we're really 
talking more about strategy and tactics here when we talk about 
relationships with the groups--are quite changeable. And I 
think they're changeable under circumstances short of what we'd 
all like to see, which is some kind of resolution of the 
Kashmir problem and the conflict between India and Pakistan.
    If Pakistan can be part of a process in Afghanistan in 
which they see their interests vis-a-vis India and all their 
concerns about Afghanistan being their so-called strategic back 
yard sufficiently satisfied, then I think there is more 
changeability with regard to their relationships with any of 
these groups, be it the Haqqani group or LT or anyone else.
    The Chairman. Do you agree with Dr. Fair's conclusion that 
even if there were an India-Pakistan rapprochement, resolution 
of that east border issue, that Lashkar-e-Taiba would continue 
to be present in Pakistan?
    Dr. Pillar. I am somewhat more optimistic than Dr. Fair 
about what the implications would be if we could see 
substantial progress in the Indo-Pakistani equation. 
Unfortunately, it's a bit of an endless vicious circle in that 
groups like LT and other groups have their own incentives to 
disrupt a peace process and a rapprochement between India and 
Pakistan, and I think that's the main danger we face as the two 
sides have tentatively tried to get that process back on track.
    The Chairman. Dr. Fair, I didn't give you a chance to 
answer the question I originally asked you. You've heard Dr. 
Pillar suggest that perhaps improvements in the India-Pakistan 
relationship would have an impact on Lashkar-e-Taiba. Why do 
you feel it wouldn't?
    Dr. Fair. Well, for a number of reasons. One, I've really 
spent a lot of time investigating their literature. I also have 
at the Combating Terrorism Center an 810-size database of 
Lashkar-e-Taiba activists, and I've been following this group 
since 1995. I speak Urdu. I spend a lot of time in the region.
    So my assessment--I concede that if Lashkar-e-Taiba only 
had external utility then resolving the Indo-Pakistani security 
competition would be necessary, probably insufficient, to put 
that group down. But when you understand the domestic politics 
of the organization, when you understand that Lashkar-e-Taiba 
is a buffer and a bulwark to the Deobandi groups ravaging the 
state, you realize that it also has domestic utility.
    I believe I'm the first analyst to have gone through their 
materials in this way to discern this domestic utility. So I 
mean, that's what I bring to the understanding of Lashkar-e-
Taiba.
    If you'd like to know some of my thoughts about where that 
leaves us and what the options are, I'm happy to elaborate upon 
that.
    The Chairman. I would indeed.
    Dr. Fair. Well, the first thing is, not only are the groups 
themselves a spoiler, but the Pakistan Army is itself a 
spoiler. If it didn't have the security competition with India, 
it wouldn't justify its enormous claim to the resources in 
Pakistan and its central claim to being the only institution to 
protect the place would be substantially diminished. So the 
Pakistan Army is a huge spoiler and we have to keep that in 
mind.
    But we are incredibly constrained. There are potentially 
opportunities to work with the Pakistanis where we have joint 
threats--al-Qaeda, the Pakistan Taliban--but for a number of 
reasons over the last year they want us out, and so our space 
to operate with them is very, very low.
    In particular, they want us out because their assets--
Haqqani, Lashkar-e-Taiba--are our enemies, and they know that 
partly we're there to deal with those threats and they want us 
out. So we're very constrained.
    I would say even----
    The Chairman. When you say they want us out, is that 
because they perceive us as contributing to their problem?
    Dr. Fair. There are multiple answers to that. First, they 
know we're there because we want to take out their assets. 
Would we not like to take out Haqqani with a drone? Would we 
not like to have cells going after Lashkar-e-Taiba? They know 
that's what we're up to and they don't want that to happen.
    That being said, their interpretation of why they're having 
an insurgency is not proxies gone bad or blowback. They see 
that they have this internal militancy because we have forced 
them to turn against these groups in a moderated jihad 
strategy, making them rebel against the state. So no matter 
what Kayani says--I've spent a lot of time with Pakistani 
military officers, particularly below the rank of lieutenant 
colonel, so you have a different optic--they want us out of 
Afghanistan because when this happens they will see in their 
view that the alignment between the military, the mullah, and 
the militant groups will come back into alignment and those 
groups will go back to business fighting in India and 
Afghanistan.
    The Chairman. But if you accept that--and I'm not arguing 
with you; I think that there are clearly divergent interests to 
some degree. But that actually provides a rationale for why 
they should want to contain Haqqani and bring him into the 
peace process: it would get the United States out of 
Afghanistan faster.
    Dr. Fair. So I'm not--I wasn't asked to speak on the impact 
of reconciliation on Pakistan.
    The Chairman. Well, what about the reality of that?
    Dr. Fair. But I think--here's the thing about Pakistan. We 
talk about the Taliban with some kind of historical continuity. 
That's not a proper approach. We've been eliminating a lot of 
the mid-level commanders and they're replacing them.
    The Pakistanis know that many of these commanders that have 
come in to fill those empty slots are not only much more 
international focused--they're no longer simply focused on 
Afghanistan. They're much more ideological, and they also hate 
the ISI. They rightly understand that the ISI is trying to use 
them to project Pakistan's interests.
    So Pakistan actually has a much more sophisticated approach 
to these groups than we perhaps appreciate or we do ourselves. 
They're trying to deal with the Quetta Shura. They're putting 
pressure on their families to get them to tow the line. But 
they're really trying to find a way of dealing with these 
commanders that are no longer within their ambit.
    So Pakistan has a multipronged strategy of dealing with the 
splintering that's taken place in the Taliban. And they have 
the advantage of geography. They have the advantage of language 
skills and longstanding ISI assets that have been working with 
these guys.
    The Chairman. Well, there's more to follow up on that. But 
I don't disagree with you that they have a better sense of 
their own interests and strategy than we sometimes give them 
credit for, and that is a reality in both Pakistan and 
Afghanistan.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Dr. Pillar, I don't want to oversimplify your analysis, but 
I just want to mention that I made notes that you suggested the 
Taliban will persist in Afghanistan in one form or another, and 
that the Taliban will continue to not want al-Qaeda in 
Afghanistan because their presence induced the United States to 
come in and remove the Taliban from power after the September 
11 terrorist attacks. But in any event, I believe it is 
important to note the assertion that if the Taliban keep al-
Qaeda out and continue to make their way in the Government of 
Afghanistan, they would not constitute a strategic threat to 
the United States. While they may have a miserable existence in 
Afghanistan, this would not present an external threat to us.
    Now, next door, however, with regard to Pakistan, I was 
just simply making notes of the panel's assertion that it is 
unlikely the United States is going to be able to help 
reorganize Pakistan into a situation that we believe is good 
for the Pakistanis and good for us. All of you, including Dr. 
Fair, have gone through the cross-currents of actors that are 
currently there and are likely to remain.
    We touched briefly on the fact that, as miserable as the 
situation in Pakistan may be for Pakistan itself, India, and 
maybe its other neighbors, the strategic threat this poses to 
the United States still is not always apparent. Now, the 
exception to this is the point made from time to time of the 
threat this state of affairs poses to Pakistan's nuclear 
weapons complex. Specifically, should instability enable 
terrorists to gain access, whatever be their nationality, to 
fissile material or other sensitive nuclear assets, this could 
pose a strategic threat to the United States, as their 
proliferation through the Khan network has before.
    Again, I don't want to oversimplify the problem, but it 
seems to me that I started with the thought that a lot of the 
debate outside of this committee revolves around why we have 
100,000 troops in Afghanistan, whether or not such a presence 
should be sustained, and why some predict that our presence 
will continue for a long time.
    Is this debate continuing because of humanitarian impulses 
on our part? How do you respond to those in the United States 
who ask: ``What goes on here and why does it continue?''
    Dr. Pillar. Senator Lugar, I agree very much with the 
perspective that you offered in terms of Pakistan versus 
Afghanistan. In direct response to your question, I think it 
partly is the humanitarian consideration. There are a lot of 
questions raised about the status of women, about human rights 
issues. And I think it's partly just because we haven't found 
an appropriate off-ramp.
    In my judgment, Operation Enduring Freedom in late 2001 was 
a just and appropriate response to the terrorist outrage of 9/
11. It was a military action aimed directly at the group that 
did that and the movement that at the time was hosting it. We 
accomplished the objective in the opening weeks and months of 
Operation Enduring Freedom of ousting the Taliban from its 
position of power over three-fourths of Afghanistan and 
rousting Taliban from its then-safe haven. And then we just had 
a hard time finding the off-ramp.
    I think in these discussions of Afghanistan versus Pakistan 
and much of the discourse in this country we've tended to lose 
sight of what is the end and what is the means. I agree with 
everything you said, sir, about the vulnerabilities and 
concerns in Pakistan, particularly with regard to nuclear 
weapons. But if we were to zero-base this problem we would not 
address it by conducting a counterinsurgency in Afghanistan.
    Senator Lugar. All right, let's say we were to perceive a 
proliferation threat posed by an unstable Pakistan and move to 
address this threat. Is there a way of handling this without 
tens of thousands of boots on the ground? In other words, some 
have suggested what we ought to be doing is a much more 
concentrated intelligence operation that would touch not only 
upon Pakistan, but also a good number of other situations in 
the Middle East and Africa. Do any of you have a response as to 
why we should be involved in Pakistan?
    Dr. Fair.
    Dr. Fair. Well, frankly, if it weren't for those nuclear 
weapons Pakistan would have been sorted out, with far less 
complexity. It's under their nuclear umbrella that they use 
their militant groups safely. So this is the crux of the 
problem.
    I do fear that we misframe the nuclear scenario. So for 
example, if their nuclear establishment could be infiltrated 
undesirably by Islamist elements, others could presumably do 
so, the Indians, us, Mossad. So when it comes to undesirable 
infiltration, our incentives are quite aligned.
    There are periods when those weapons become much more 
vulnerable. So during their peacetime deployments the warheads 
aren't assembled and they're not mated to the delivery systems, 
but as a conflict with India begins to escalate they begin 
mating the warheads and they begin mating them and forward-
deploying them with their delivery assets, and that's when 
command and control becomes really murky.
    So if I were a terrorist and I understand how the Pakistani 
security establishment deals with nuclear weapons, that's when 
I would try to do something nefarious.
    The other issue that I am worried about is, just as Aslam 
Beg in the 1980s deliberately chose to proliferate to Iran to 
undermine our security interests, we cannot rule out the 
possibility that the Pakistani state would deliberately do 
that. Now, I'm not saying it's immensely probable, but things 
are pretty tough, and Aslam Beg certainly did that to undermine 
us strategically.
    So I would suggest that we think about the nuclear problem 
in a much more wider capacity, and this requires different 
kinds of intelligence. So for example, if there were to be a 
state transfer that again would be another opportunity where 
nefarious elements could interdict them. So this does require 
us to be on the ground, which is why when I hear people talking 
about pulling out of Pakistan I'm very apprehensive, because we 
can't monitor the situation without assets in Pakistan.
    Senator Lugar. Do any of you have any comment on the 
Pakistanis working with the Chinese recently and the thought of 
a naval base for the Chinese in Pakistan? Is this simply a 
reaction against Osama bin Laden's killing or do the Pakistanis 
see this as fulfilling their broader interests?
    Yes, Dr. Fair.
    Dr. Fair. Well, actually the base at Gwadar has been built 
with Chinese assistance, as is well known, and there's not a 
lot of speculation about the nature of that port. It's a 
deepwater port.
    We also have to understand the context of what China wants. 
China wants to have access to move its ``dangerous goods'' in 
and out of and through Pakistan. But it also should be seen in 
context of India's security competition with Pakistan. I'm not 
sure if you're aware of the Indian port that's being built in 
Iran in Chabahar, which is just a few hundred kilometers along 
the Makran coast of Gwadar. So there is an element of this 
which cues off of the Indo-Pakistan security competition.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you very much.
    Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman, and I 
thank our three witnesses.
    Clearly the United States has a great interest in Pakistan. 
Dr. Fair, I don't think any of us are suggesting that we ignore 
Pakistan, but there are mixed signals here that are very, very 
troubling, and that the United States needs to be able to have 
alternatives for carrying out its foreign policy in that 
region. I know that that's part of our strategies.
    Let me sort of underscore this. Pakistan's critically 
important for many reasons, not the least of which its nuclear 
capacity and the current safe haven for terrorist organizations 
and the importance of staging for us in Afghanistan. But it's 
also clear that LT is a terrorist organization. The United 
States should have a pretty clear position as to how we deal 
with terrorist organizations and we should leave no ambiguity. 
Pakistan has to choose sides on what side it is on the war 
against terror. And they're giving mixed signals today, not 
just the bin Laden circumstances.
    But yesterday in Chicago, at the David Headley trial a 
confessed Pakistan-American terrorist testified that ISI and LT 
coordinated with each other and ISI provided assistance to 
Lashkar, financial, military, and moral support. Now, I don't 
know how the United States can just ignore this. It seems to me 
that we need to be able to confront Pakistan's support for 
terrorist organizations. And United States taxpayers are 
providing support to Pakistan today, and that's an issue that 
will come to the attention of the United States Congress.
    So it's going to hit a crisis point if we cannot get 
Pakistan to support the war against terror, including terrorist 
organizations which are in their own state. So what are our 
choices? What do we do about that?
    Dr. Fair.
    Dr. Fair. First of all, we need to take some 
responsibility. Pakistan has never given us anything but these 
signals. We dismissed Lashkar-e-Taiba for years as India's 
threat. Pakistan never turned its back on Lashkar-e-Taiba. 
Pakistan did a u-turn on its u-turn with the Taliban very early 
in the conflict and there were no consequences because we had 
other preoccupations that did not allow us to have the 
fortitude that we should have had to be more forthright with 
Pakistan.
    I'll point out that, to my utter astonishment--I wasn't 
astonished; I was disappointed--the Secretary of State 
certified that Pakistan was in compliance with the 
conditionalities on security assistance vis-a-vis Kerry-Lugar-
Berman. This was done on March 18, despite full knowledge that 
we were engaging in an operation to get bin Laden, despite full 
knowledge that the Pakistani state has continued to harbor and 
assist Lashkar-e-Taiba, among other elements.
    So we have to, I think, be honest and self-reflective. Why 
is it that we have been unable to actually enforce what already 
is in our own legislation? The reality is, however, we don't 
have a lot of options with Lashkar-e-Taiba. We know from the 
Raymond Davis affair it's very difficult to operate in that 
terrain. The ISI knows what we're up to and they're seeking to 
undermine it.
    I do think we have options to contain it. Let me put 
something somewhat obnoxious on the table. Lashkar-e-Taiba's 
largest theater of operations for its support is in Pacific 
Command, where we actually have a lot of assets and we have a 
lot of partners. We should be aggressively targeting Lashkar-e-
Taiba's assets in the Pacific Command, in Europe, in North 
America. They can't do what they do without outside support.
    So while it may sound somewhat disappointing that we don't 
have more aggressive options, I think we have more options than 
we believe. I think we should also think about targeting 
specific individuals for which we have evidence that are 
directly supporting Lashkar-e-Taiba, as opposed to taking a 
broad stroke brush and going after the entire organization. I 
think this requires us to be more collaborative with our 
allies.
    And Pakistan, if we were to go after Lashkar-e-Taiba and 
their network of support in Thailand, what could Pakistan 
credibly say? Shame on you for going after our network in 
Thailand?
    Senator Cardin. I want to go against terrorist 
organizations, don't get me wrong. My question is Pakistan's 
complicity here----
    Dr. Fair. Well, what are our----
    Senator Cardin [continuing]. And the United States, and 
we're providing aid to Pakistan. We have a pretty strict rule 
about not providing aid that can be filtered off to support 
terrorist organizations. If ISI and LT really have a close 
relationship, then there's a real concern as to whether U.S. 
funds are being used to support terrorist organizations.
    Dr. Fair. But if we didn't have that engagement, sir, we 
would----
    Senator Cardin. I understand we always need to have 
strategic partners. But we have a clear rule on terrorism.
    Dr. Fair [continuing]. We wouldn't have been able to have 
our CIA assets in place in Pakistan to, for example, kill Osama 
bin Laden. So there's no other country like Pakistan, that 
represents such a convergence of severe national security 
threats that we're really operating in a trade space. I would 
argue that we are limited in Lashkar-e-Taiba----
    The Chairman. A trade space?
    Dr. Fair. In other words, we're constantly making 
tradeoffs----
    The Chairman. Trading space.
    Dr. Fair [continuing]. With Pakistan. It's a unique 
country. There's no other country--I will add, Iran might be 
one in the future--that operates with militant groups under its 
Islamic--under its nuclear umbrella.
    But we are constantly having to make tradeoffs with 
Pakistan. Our only long-term hope, quite frankly, is that we 
can continue to provide investments that will allow the 
civilians over the secular time period to take control of 
security governance. We need to be at every opportunity helping 
Pakistan's parliamentarians, their various committees in the 
Parliament on defense and intelligence, to do their job. Our 
only hope, howsoever slim, that Pakistan will reverse course is 
if the civilians can exert control over security governance, 
and that means staying in there.
    Senator Cardin. Is ISI in your view supporting and 
coordinating its activities with LT?
    Dr. Fair. It certainly is. Pakistan is the arsonist and 
it's the fireman. It will help us on groups that it shares the 
sense that it is a threat, but yes, it is my assessment it is 
continuing to work with LeT in a very close way.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Udall.
    Senator Udall. Thank you, Chairman Kerry, and thank you for 
holding this hearing. I think it's been a very, very good 
discussion so far.
    Let me focus in a little bit on a little bit different 
tack, but the trial in Chicago that's going on. That hasn't 
been mentioned yet, and obviously the testimony as it comes out 
I think is going to show the ties with the ISI and I think has 
the potential to once again erupt into a problematic situation 
for United States and Pakistani relations. Could you all talk a 
little bit about that and where you think that's going? 
Obviously, you may not know all of the trial testimony, but I 
think a lot of that is out there right now. Any of you that 
want to jump in is fine.
    Dr. Pillar. Well, obviously when you have a trial with 
public testimony some things are forced into the open that 
might otherwise have been dealt with behind closed doors. But 
in response to your question, sir, and also Senator Cardin's 
issues, I think after the raid at Abbottabad the United States 
has some additional leverage over Pakistan. It was a huge 
embarrassment to the Pakistani military. I think the 
administration, our administration, played it about right in 
not publicly rubbing the Pakistanis' nose in that bit of dirt.
    I would hope and assume that behind closed doors there are 
conversations going on that do take the form of confrontation, 
as Senator Cardin mentioned. So that would be the main point I 
would add, that behind closed doors, out of the public, we take 
a rather tough line and don't shy away from confrontation. But 
to publicly make an issue of it is not going to advance our 
cause.
    Senator Udall. Just to stop you there, I think that's a lot 
of what Senator Kerry was doing in the last couple of weeks 
over there, my understanding. Go ahead, please.
    Dr. Fair. One thing about the trial with David Coleman 
Headley taking the stand, we have to also remember that what he 
says, howsoever inflammatory, may not be true. So I've been 
concerned about the injudicious reporting of what he said. 
Obviously, he's a terrorist. He's unreliable. The basis of the 
plea bargain was that he was going to make these claims.
    That being said, I also believe that the fundamental 
lineaments of his claims are true. But I believe it's a 
marginal revelation. We already knew the ISI was behind this.
    But I'm going to basically take the point that Senator 
Kerry made, that Lashkar-e-Taiba is so close to the Pakistan 
ISI and to the army that this is a very serious redline for 
them, and meaningful steps to go after that group along with 
Haqqani, as long as we have this large counterinsurgency 
footprint that has to be resupplied--I think it's going to be 
very difficult to make consensus across the interagency process 
to do something where the Pakistanis would try to inhibit our 
resupply of those troops. The Northern Distribution Route's not 
a viable options.
    So this is one of the numerous reasons why I was a 
proponent of counterterrorism plus, if for no other reason than 
to diminish our dependence on Pakistan, where we have a greater 
space to be much more forceful on this particular issue. But 
when we are trying to deal with our troops and keep them safe 
in Afghanistan, I think it's going to be very difficult to 
stomach the kinds of things that we would have to do to get 
Pakistan to be aggressive on Lashkar-e-Taiba.
    Senator Udall. Peter, do you have any thoughts on this?
    Mr. Bergen. No.
    Senator Udall. Thank you, Senator Kerry. I appreciate it.
    The Chairman. Thank you, Senator Udall.
    This is really a very complicated set of choices and 
interactions. Dr. Pillar, from your experience within the 
agency tell us how we ought to be looking at the ISI. People 
sometimes refer to the ``three governments'' in Pakistan, in 
the following order: the army, the ISI, and the civilian 
government. Would you say the ISI has that much independence, 
and does it have the autonomy and capacity to affect things on 
its own? Or can the army control what the ISI does and, if so, 
what are the options with respect to the ISI and these splinter 
groups that serve their purposes?
    Dr. Pillar. I don't think we should talk about the ISI and 
the army as if they were two entities. The ISI is part of the 
military establishment and there has been a fair amount of 
cross-assignment, if you will, at the top, including chiefs of 
the general staff who have been themselves directors of ISI.
    With regard to the first part of your question, Mr. 
Chairman, the relationship with ISI is perhaps a particularly 
outstanding example of one that we do see elsewhere around the 
world, of an intelligence and security service that--and this 
is generally true of the more authoritarian governments that we 
have to deal with--has enormous clout. So the service-to-
service relationship is not just a mundane, let's exchange 
information every Tuesday kind of thing, but rather one in 
which we realize and they realize this is an important channel 
for intergovernmental relations. From our standpoint we are 
talking to people who really matter.
    So I agree with Christine Fair that having the presence, 
having the relationship, is important for our purposes. It's 
always a matter, and it's certainly a matter between us and the 
ISI, of both shared interests and conflicting interests. It is 
a game, if I may use that word, not to trivialize it, in which 
both sides are trying to get as much as they can from the 
other, realizing that it is partly on matters in which our 
interests are shared, but also on which they conflict.
    You can never trust entirely the other side, but you can't 
fail to do business with them, either. We are highly dependent 
on liaison services in general, particularly on 
counterterrorism, even though there is not a single one that we 
can say we trust totally.
    The Chairman. Can the Pakistanis take the actions they need 
to take in order to deal with the Pakistani Taliban, without 
upsetting their relationships with Lashkar-e-Taiba, with 
Haqqani, and the other groups?
    Dr. Pillar. That's an example of where our interests do run 
parallel. Neither we nor the Pakistani establishment wants to 
see those forces become more of a problem than they already 
are. I think the way you handle it is the way in effect we and 
the Pakistanis have handled it with some of the drone strikes, 
where we have this charade in which we have used some of that 
capability against Pakistani Taliban targets. That's in our 
interest, that's in the Pakistani military's interest as well. 
But part of the charade is they protest and pretend that it was 
all our business and they don't like it. I'm afraid that's the 
kind of game we'll have to continue to play.
    The Chairman. Well, let me perhaps differ with you slightly 
on that, having conversations with them recently. I think 
they're more perturbed about those drone strikes than you 
think, and I think it goes beyond being a game, as you call it. 
I think they are paying a high political price for the strikes. 
I think that, depending on the targets, they're not that 
thrilled. And I think there's a lot more serious pushback to 
the drones now than we've seen in any recent time.
    Dr. Pillar. I did not mean to minimize the genuine 
resentment that certainly is felt among parts of the 
population, and that then gets transmitted as well through the 
government. I was only trying to make the point that this is 
another area where the interests are partly conflicting and 
partly shared.
    The Chairman. Well, I agree with that.
    Mr. Bergen, what about the capacity for them to move 
against the indigenous insurgency and work hand in hand with us 
as a consequence? To what degree do these splinter groups pull 
them away from that on a constant basis?
    Mr. Bergen. As you know, sir, the Pakistani Taliban mounted 
a 20-hour attack on the equivalent of their Pentagon in October 
2009. That was all carried live on Pakistani television. 
Imagine if there was a 20-hour attack by a group of terrorists 
on the Pentagon here carried live on CNN. That really got the 
attention of the military.
    There have been also four, by the way, attacks on ISI 
buildings by these militants. So the ISI itself is a target of 
some of these militants.
    So I think that has been an opportunity. As you know, more 
Pakistani soldiers have died fighting these militants than 
United States and NATO soldiers combined. So everything that we 
said today is true----
    The Chairman. I think that's an important thing to put on 
the table here.
    Mr. Bergen. Yes.
    The Chairman. Some 30,000 Pakistani civilians have died at 
the hands of their insurgency and over 5,000 troops have died 
in the Swat Valley and in Waziristan fighting the insurgency. 
People don't either know about these losses or they discount 
them as they think about the relationship.
    Mr. Bergen. I couldn't agree with you more, sir. And as a 
result of which, the Taliban had a sort of religious Robin Hood 
image until several years ago, but support for the Taliban's 
suicide bombing and al-Qaeda has cratered. So that's what makes 
this a very complex picture.
    The Chairman. Senator Lugar. I know we only have about 10 
minutes before we need to go to the floor.
    Senator Lugar. I defer to Senator Menendez.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, and thank you 
all. I'd been catching snippets from my office while meeting 
with constituents, and heard some incredibly thoughtful 
answers.
    Despite our incredible military presence in Afghanistan, 
there are supposedly only between 50 and 100 or some odd al-
Qaeda fighters in the country. Nevertheless, General Petraeus 
has warned that if the United States abandons the 
counterinsurgency approach and significantly draws down forces, 
various international terrorist organizations would exploit 
that opening and flood into Afghanistan.
    Do you believe that to be the case? What is the nature of 
the threat of the Afghan Taliban? Is it a terrorist threat to 
the United States? Is it a threat limited to the potential 
destabilization of a weak Afghan Government? What's your view 
of that?
    Mr. Bergen. I think getting focused on the numbers of al-
Qaeda is kind of a red herring. On 9/11 there were 200 members 
of
al-Qaeda and they inflicted the most devastating terrorist 
attack in history on the United States.
    It's not just about al-Qaeda. The President, for very 
obvious political reasons, has defined it thusly, but there are 
a lot of other reasons we're there. When the Taliban ran 
Afghanistan, every Muslim insurgent and terrorist group in the 
world was either headquartered or based there, and that 
alphabet soup has just migrated across a border that they don't 
recognize into Pakistan.
    So the idea that somehow the Pakistani Taliban is very 
different from the Afghan Taliban doesn't make a great deal of 
sense to me. After all, Mullah Omar, the leader of the Afghan 
Taliban, lives in Pakistan. Gulbuddin Hekmatyar, the leader of 
another Taliban group, lives in Pakistan. The Haqqani Network, 
which is the Afghan Taliban, so-called, is in Pakistan.
    So I think that General Petraeus and others who have made 
the point are not saying it's just about the al-Qaeda--it's 
about preventing a return to the pre-9/11 Afghanistan, where it 
was basically a sort of Woodstock for every jihadist group from 
around the globe. And that is a reasonable concern.
    I think that there are just two or three quick other points 
that I want to make. We also have a sort of moral obligation 
when we overthrow somebody else's government to kind of not 
leave the place, to kind of pick up the pieces. And we've 
already done this twice in Afghanistan. We closed our Embassy 
there in 1989. Into the vacuum came the Taliban allied with al-
Qaeda. We did it again in 2002 because of an ideological 
opposition to nation-building by the Bush administration. There 
were only 6,000 American soldiers in Afghanistan in 2003. 
That's the size of the police department in Houston, in a 
country the size of Texas, with a population 10 times larger.
    So we've run the counterterrorism do-it-light approach. 
We've done that already. And it's not just about al-Qaeda or 
other groups we need to be concerned about. An unstable 
Afghanistan makes an unstable Pakistan. We've already discussed 
why that's important.
    Finally, the Taliban are the Taliban. You know, these are 
not a bunch of Henry Kissingers in waiting who are going to 
preside over some sort of wonderful settlement in Afghanistan. 
These are people who incarcerated half the population in their 
houses, who continue to poison girls going to school in 
Pakistan and Afghanistan, who have massacred Shias and others, 
and who imposed a theocratic reign of terror on a population. 
So it's not just about 65 members of al-Qaeda in Afghanistan.
    Dr. Fair. I would like to offer a dissenting view. I get 
very frustrated when people say, well, we did counterterrorism 
early on and therefore it didn't work and therefore it won't 
work now. It's a disingenuous argument, because all of the 
material conditions between then and now have changed. So if 
you're going to evaluate counterterrorism in 2002 and 
counterterrorism today, you need to consider all these 
intervening variables.
    Moreover, we're not talking about 2,000 people in 
Afghanistan with a counterterrorism-plus footprint. We're 
talking about remaining in a position to continue training the 
Afghan National Security Forces. There are 300,000 Afghan 
National Security Forces, of varying degrees of capacity, 
mostly not that terribly impressive. But the idea that the 
Taliban are going to roll back into Kabul under the current 
conditions I think is somewhat ridiculous.
    I think President Karzai would like us to stay there for 
the training. I think he'd be happy to let us have access to 
bases to continue gathering intelligence on al-Qaeda. He 
doesn't want al-Qaeda there, either.
    I also think that the contemporary argument that says that 
if we don't have a 130,000-person footprint in Afghanistan that 
our intelligence will decrease--there is no evidence to believe 
that that's correct. In fact, we could argue equally that when 
we're no longer engaging in operations that Afghans despise 
because it hasn't brought them a personal security dividend, 
maybe our intelligence will actually improve.
    So I think that we really need to put into the public 
debate questions: How tied are they to al-Qaeda? As Dr. Pillar 
said, we can't rely upon the historical narratives of the 1990s 
to assume this relationship persists. Things have changed; so 
have they. Our analysis has to change. We have to ask, what is 
the nature of our intelligence? Is it so great today? Probably 
not. Might it improve if we weren't alienating the Afghans with 
this counterinsurgency footprint? Possibly.
    So I'd like to put on the table a very strong dissent from 
the picture outlined by Mr. Bergen.
    Dr. Pillar. The Afghan Taliban, as I mentioned before, is 
not an international terrorist group. It's concerned about 
events inside Afghanistan. It has no support for the whole 
transnational terrorist idea as represented by bin Laden.
    The one other point I want to emphasize follows on 
Christine's comments about how things have changed and how the 
1990s is not today. When I was working on counterterrorism in 
the 1990s and we were worried about bin Laden in Afghanistan--
and this goes back before 9/11, before even the Embassy 
bombings in 1998; we're talking about the 1997 era--and the 
Clinton administration was wrestling with this, well, we still 
had the gloves on then. And we knew where bin Laden was, but 
there wasn't the public support for using military force.
    When we had our Embassies bombed in 1998 and President 
Clinton responded with a cruise missile strike--which seems 
like a pinprick now, doesn't it--he was criticized for using 
excessive military force, for trying to divert attention away 
from domestic political matters. Now, clearly, ever since 9/11 
the gloves have really come off.
    So if there was anything even remotely resembling the kind 
of foreign terrorist presence in Afghanistan that we saw in the 
1990s, we'd do a lot more than just one cruise missile strike, 
even if we weren't waging a counterinsurgency on the ground. We 
would basically bomb the heck out of it, and everyone knows 
that and the Taliban knows that.
    Senator Menendez. These are very thoughtful answers. 
Listening to Mr. Bergen, I ask, do we have a real partner in 
Afghanistan to meet our goals as you describe them? And at what 
cost and for how long, seems to me to be a really significant 
question to decide where we go at the end of the day.
    Mr. Bergen. Since our time is short, let me just give you a 
very quick answer to that. Our partner is the Afghan people, 
not the Afghan Government as represented by President Karzai. 
The most common----
    Senator Menendez. But we don't get to work directly with 
the Afghan people. We get to work with their elected 
representatives.
    Mr. Bergen. Well, Karzai, his time is limited. He's going 
to be out of office in 2014, and there are people already 
forming, very effective politicians, to challenge him. So the 
most common polling question you can ask is: Is your life 
getting better? In America only 30 percent of Americans think 
their country's going in the right direction. Fifty-nine 
percent of Afghans think their country's going in the right 
direction, because they know life is better than it
was under the Taliban during the civil war, during the Soviet 
occupation.
    So our partnership is with the Afghan people, who know that 
their lives are getting better, can see the advantages of not 
living under the Taliban. And they want us to stay. They were 
very concerned about us leaving in July of this year and the 
fact that we put December 2014 on the clock is something that 
they're very happy about.
    Senator Menendez. One last question if I may, Mr. Chairman.
    Now that bin Laden is dead, is al-Zawahiri or anyone else 
able to bring al-Qaeda together?
    Mr. Bergen. When you joined the Nazi Party, you swore a 
personal oath of allegiance to Adolf Hitler, not to Naziism. 
When Adolf Hitler died, Naziism basically died with it. It's 
not an exact analogy, but when you joined al-Qaeda you swore a 
personal oath of allegiance to bin Laden. No one else can fit 
into his shoes.
    Ayman al-Zawahiri, if he took over, would be great because 
he would drive what remains of the organization into the 
ground.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Thank you, all of you. I've been trying to fit this image: 
Given the Taliban attitude about music, I'm trying to work out 
this Woodstock analogy. [Laughter.]
    But it's an interesting challenge.
    That said, this is fascinating and tough and complicated, 
and we need to talk more. What I want to do is what we did with 
another panel, which is to ask you if you would make yourselves 
available so we could have some sessions just with the 
committee to quietly dig into these issues.
    But it's been enormously helpful and I thank all of you. 
The dissent on the panel is equally helpful. We want you here 
because you do have different points of view about it, and it 
tests our thinking. So we're very appreciative to all three of 
you.
    As I said, your full testimonies really are exemplary, each 
of you. Thank you for putting the time into them, and they're 
important and are now part of the record. And we look forward 
to following up with you in other venues as we go forward in 
these next weeks and months thinking about this.
    It's a critical issue to the country and it's not going to 
go away quickly, either. So we've got a lot of thinking to do 
and a lot of work to do.
    Thank you very much for being here today. We stand 
adjourned.
    [Whereupon, at 10:23 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
